<html>
<title> - EFFECTIVE DRUG PREVENTION EFFORTS IN OUR SCHOOLS AND COMMUNITIES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





    EFFECTIVE DRUG PREVENTION EFFORTS IN OUR SCHOOLS AND COMMUNITIES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 5, 2000

                               __________

                           Serial No. 106-213

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                               -----------
                   U.S. GOVERNMENT PRINTING OFFICE
71-691                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                   Steve Dillingham, Special Counsel
                           Ryan McKee, Clerk
                    Cherri Branson, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 5, 2000.....................................     1
Statement of:
    Anderson, Mike, mayor, city of Mesquite, TX; Gary Westphal, 
      assistant chief of police, city of Mesquite, TX; Frank 
      Seib, acting special agent in charge, Drug Enforcement 
      Agency; and Mike Pappas, Dallas County Constable...........    10
    Mitchell, Dana, director, Mesquite Youth Intervention 
      Program; Matt Manning, fellowship of Christian Athletes; 
      and Dora Flowers, security officer, Bryan Adams High School    75
    Ramos, Karen, principal, Bryan Adams High School; George 
      Williams, trustee, District IV, Dallas Board of Education; 
      Justin Bowen, student; and Dr. John D. Horn, 
      superintendent, Mesquite Independent School District.......    52
Letters, statements, etc., submitted for the record by:
    Anderson, Mike, mayor, city of Mesquite, TX, prepared 
      statement of...............................................    12
    Bowen, Justin, student, prepared statement of................    62
    Flowers, Dora, security officer, Bryan Adams High School, 
      prepared statement of......................................    85
    Manning, Matt, fellowship of Christian Athletes, prepared 
      statement of...............................................    83
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     5
    Mitchell, Dana, director, Mesquite Youth Intervention 
      Program, prepared statement of.............................    77
    Pappas, Mike, Dallas County Constable, prepared statement of.    33
    Ramos, Karen, principal, Bryan Adams High School, prepared 
      statement of...............................................    54
    Seib, Frank, acting special agent in charge, Drug Enforcement 
      Agency, prepared statement of..............................    24
    Sessions, Hon. Pete, a Representative in Congress from the 
      State of Texas, prepared statement of......................     8
    Westphal, Gary, assistant chief of police, city of Mesquite, 
      TX, prepared statement of..................................    16
    Williams, George, trustee, District IV, Dallas Board of 
      Education, prepared statement of...........................    57

 
    EFFECTIVE DRUG PREVENTION EFFORTS IN OUR SCHOOLS AND COMMUNITIES

                              ----------                              


                          MONDAY, JUNE 5, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                      Mesquite, TX.
    The subcommittee met, pursuant to notice, at 10 a.m., at 
West Mesquite High School, Mesquite, TX, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica and Souder.
    Also present: Representative Sessions.
    Staff present: Steven Dillingham, special counsel; and Ryan 
McKee, clerk.
    Mr. Mica. Good morning. I would like to call this hearing 
of the Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order. For the information of those visiting this 
morning, I am John Mica, chairman of the subcommittee.
    This hearing today is part of a series of national hearings 
that we have been conducting, across the country and also in 
our Nation's capital, dealing with our efforts to combat 
illegal narcotics. And this morning we are here in Mesquite, TX 
at the request of our colleague, Mr. Sessions, the gentleman 
from Texas. We are here to have an opportunity to learn more 
about effective drug prevention in our schools, and 
communities, which is the title of today's hearing.
    The order of business this morning will be first opening 
statements by members, and then we will hear from our first 
panel. I believe we have three panels today. This is an 
investigations and oversights subcommittee, of the Government 
Reform Committee of House of Representatives. I will inform our 
witnesses that we ask you to limit your oral presentations 
before the subcommittee to 5 minutes, and we will, upon request 
through the chair, include in the record any extraneous 
material, data, information, lengthy statements for part of the 
official record of this proceeding today.
    With those opening comments, I will proceed with my opening 
statement, and then I will yield to other Members.
    Today, this subcommittee will examine the impact of illegal 
drugs in and around the city of Mesquite and the surrounding 
areas, including the major population center and transportation 
hub of Dallas. We will focus on law enforcement and community 
responses to drug challenges, especially promising prevention 
initiatives.
    As Chair of the Subcommittee on Criminal Justice, Drug 
Policy, and Human Resources, I am very pleased to be holding 
today's here in West Mesquite High School. I want to take this 
opportunity to express special thanks to Representative Pete 
Sessions for his invitation to have the hearing here in his 
district. We appreciate, and I personally do, his continued 
support, interest, leadership and strong commitment to 
combating illegal narcotics and protecting public safety. I 
know that public service and law enforcement are matters of 
personal dedication and a family tradition for Representative 
Sessions.
    This subcommittee has been one of the most active in 
Congress. Last year, the majority of our 28 hearings were 
devoted to America's drug problems, including both supply and 
demand policy and initiatives. This year, we are increasing the 
pace. Despite time-consuming congressional issues that range 
from trade relations to tax reductions, we are continuing our 
hearings and oversight of our Nation's policies and practices 
in combating illegal and dangerous narcotics, and also 
conducting field hearings throughout the United States to learn 
from the grassroots how we can do a more effective job in 
dealing with this national problem.
    On May 26, we held hearings addressing the problem of drug 
trafficking through the U.S. mail and through commercial 
carriers. That was held in our Nation's capital. On May 30th, 
we conducted a hearing in New Orleans, LA examining local drug 
enforcement and prevention initiatives that included a drug 
testing program, which is now in the private schools and 
expanding to public schools. On June 1st, just a few days ago, 
in Orlando and the neighboring area of my congressional 
district, we focused on the increasingly terrible problem of 
what is commonly referred to as club drugs, such as Ecstasy, 
which have become popular at all-night parties called raves. 
And we found in New Orleans and Orlando, and other parts of the 
country, this is a new challenge that we are all facing, and a 
very serious challenge.
    While we average more than one hearing per week, and remain 
actively engaged in all forms of government oversight, that is 
a responsibility chartered to our subcommittee, fighting 
illegal narcotics remains our foremost priority. This priority 
will continue in the future and with the full support of 
Speaker Hastert, who chaired this subcommittee and was 
responsible for some of the increased assets and attention 
brought to this community and this region when it was the 
victim of an epidemic of heroin overdoses.
    Many members, including those joining us today, recognize 
the continued importance and urgency of this effort. We really 
only touched the surface of what we need to do in combating 
illegal narcotics. We have a very serious challenge ahead of 
us, including the problem of making up for lost ground due to a 
number of administration failures in not treating our Nation's 
drug epidemic seriously or expeditiously.
    Today, we have some very distinguished guest witnesses and 
dedicated officials and citizens who are contributing in 
critical ways to fight the terrible scourge of drugs that 
threaten our States and communities. Today's witnesses serve on 
the front of lines of the war against drugs here in this 
community, and I believe they are very well positioned to 
understand the local threat and responses that are needed. And 
a part of our philosophy, and Mr. Sessions' philosophy is that 
we listen to the local communities and local officials and take 
those ideas and suggestions to Washington and try to implement 
that, so we can be a partner.
    Many communities are experiencing success through 
innovative initiatives and exemplary programs. While in the 
Nation's capital, the word programs may conjure visions of 
large bureaucracies and piles of paperwork, here in Mesquite, 
programs and initiatives refer to local officials taking direct 
and immediate actions to make a difference. And often in a 
cost-effective manner, sometimes in contrast to the way we do 
things in Washington.
    I look forward to learning from the local perspective and 
how drug and law enforcement officials and school and 
communities leaders deal with the serious drug threats they 
face here, and how they meet those challenges and learn that 
today on a first-hand basis. It is especially important that we 
obtain the insights of those who dedicate their lives to 
educating our youth and to assist them in reaching adulthood as 
healthy and productive citizens. These educators and community 
leaders make all the difference in influencing our youth in 
their behaviors, and in preventing them from abusing and 
dealing with dangerous drugs. While preventing the first 
instance of drug abuse is our highest goal, we must find ways 
to rescue those who appear to be on the wrong path and are now 
experimenting with or addicted to illegal narcotics.
    Can we identify prevention and treatment approaches and 
programs that will stop drug abuse and reinforce individual 
responsibility? If we can, we must act without delay in 
supporting those successful approaches. Experience has shown 
that States, cities and communities and local community based 
organizations are the true laboratories of democracy that 
develop our most successful initiatives in combating illegal 
narcotics.
    Examples of successful approaches in responding to the drug 
crisis seldom originate in Washington, DC. For example, local 
governments first implemented the concept and practice of drug 
courts. One of the first drug courts was established more than 
a decade ago in my home State, in Dade County, which is 
principally the Miami area. Over the past decade, drug courts 
have multiplied by hundreds in States and communities across 
America.
    I recently introduced a bill, H.R. 4493, which is entitled, 
``A Prosecution Drug Treatment Alternative to Prison Act of 
2000.'' That legislation is intended to dedicate Federal 
resources to assist States and communities in treating non-
violent offenders who are the victims of drug addiction. The 
prototype of this legislation was developed more than a decade 
ago by a local prosecutor in Brooklyn, NY. It allows 
prosecutors to select a rigorous treatment program that 
mandates strict observance of program rules. The prosecutor has 
the leverage of a substantial prison sentence if an offender 
violates the program requirements.
    Evaluation results of the program indicate high treatment 
retention rates, low recidivism and significant cost savings. 
The program promotes a common-sense effective option for 
prosecutors as well as a valuable opportunity to offenders who 
are serious about reforming their lives.
    This hearing is designed to gather new information on 
successful drug prevention approaches. Recent experience and 
research indicates that there is no single solution for all 
communities. And I am more convinced than ever, even after 
conducting our most recent series of hearings, that we are 
going to have to find even more effective drug education and 
prevention programs. We have been doing our best to curtail 
illegal narcotics from coming across our borders, which is 
certainly a national responsibility.
    Now we face the insidious threat of narcotics, illegal 
narcotics and drugs, designer drugs, being produced at home in 
garages, locally in incredible quantities with incredible 
deadly results. The hearing we held in Sacramento, CA 
illustrated the challenge we are faced with, and the one last 
week in my own home district of Orlando showed that some of 
these drugs, such as Ecstasy, which are readily available, and 
other designer drugs, make us really think that we have got to 
do a better job on the prevention education side, because this 
threat is coming at us from every direction.
    It is my hope that we can work together, compare ideas, 
resources and all maintain our commitment to resolving probably 
one of the greatest challenges of our generation.
    I welcome each of our witnesses today and look forward to 
hearing their testimony. I am pleased at this time to yield to 
the gentleman from Texas, and also thank him again for inviting 
us to his district to hear from witnesses he has helped us 
select, so we can do a better job. Mr. Sessions, you are 
recognized.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T1691.001
    
    [GRAPHIC] [TIFF OMITTED] T1691.002
    
    Mr. Sessions. Mr. Chairman, thank you so much, and I would 
like to ask unanimous consent for my statement to be inserted 
into the record.
    Mr. Mica. Without objection, so ordered.
    Mr. Sessions. Thank you, Mr. Chairman.
    I would like to publicly thank today not only you, as the 
chairman of this subcommittee, but also the gentleman from 
Indiana, Mr. Souder, for your commitment, to the effective use 
of law enforcement resources in fighting drugs and the scourge 
of drugs on America, our children, and the people who are 
engaged in the activities in our schools. Also, I would like to 
thank you for taking time to come for your second time to West 
Mesquite High School.
    As a former member of the Committee on Government Reform, I 
became interested from the first day I set foot in Congress 
about the drug problem that we have in our country. Both of you 
have been tireless fighters in finding what the problem is and 
effective resources to defeat this problem.
    Today, we have before us a series of men and women who are 
engaged, in the defense of our children and in law enforcement 
in the battle against drugs. I have asked each of these people 
to be here because I believe that they represent the very best, 
of not only our cities and our schools, but also represent 
people who are not weary. Not weary of fighting against drugs. 
And I would like to tell them, Mr. Mayor and Mr. Assistant 
Police Chief, Mr. Special Agent in Charge of the DEA here in 
Dallas and Mr. Constable, we are not weary in Washington. We 
will continue to work with you. We will work with you on 
effective programs and policies that will make your job easier. 
We will work with you on stopping drugs, not only at our border 
but also where they are manufactured, and the making of those 
drugs, wherever they are around the world. And I want you to 
know that the job that you do and the input that we receive 
here, in fact, does matter.
    From the hearing of 2 years ago, in 1997, it led to the 
most comprehensive updating of a law called the Drug 
Trafficking Life Imprisonment Act of 1997, where we worked 
specifically with the methamphetamine problem. I will take the 
testimony that you give today and your ideas, and combine with 
Chairman Mica and Congressman Souder on an effective, 
continuing drug effort in Washington, DC to make sure that what 
we do is listen to you, to utilize the testimony and feedback 
that you give us, and make that effective, not only here in 
Dallas and Mesquite, TX, but all across this country.
    Mr. Chairman, I thank you for doing this, and I thank you 
for your time and attention to the needs of Texas and the 
things which we have to contribute to this war on drugs.
    Mr. Mica. Thank you, Mr. Sessions. And I will recognize the 
gentleman from Indiana, Mr. Souder.
    [The prepared statement of Hon. Pete Sessions follows:]

    [GRAPHIC] [TIFF OMITTED] T1691.003
    
    Mr. Souder. I want to thank Congressman Sessions for 
inviting us here, Congressman Mica for his leadership, not only 
as a Member of Congress, but both of us were Senate staffers, 
and he was one of the original guys who put together much of 
the first rounds of these drug wars. And then we seemed to back 
off for a while, and bang, it is back again. We have to spend 
another 10 years trying to undo the damage that came.
    We are also not just focusing on interdiction and law 
enforcement. Congressman Sessions has been a tireless crusader 
in all these different areas. But we in the Education Committee 
have been dealing with the drug-free schools question, the, let 
us just say lack of consistent effectiveness in prevention 
programs. And we are constantly looking at these type of things 
at the school level, trying to figure out how to give schools 
more flexibility, how this issue mixes with school violence.
    We have had multiple hearings over in Education with the 
kids and teachers from Columbine, from Rice Lake in Washington, 
from Paducah, KY, from Springfield, OR--almost every area of 
the country where they have had the school violence, often 
which is very closely tied to the drug issue, very closely tied 
to families, not just broken families, but families who are not 
spending time with their kids, and schools are just overwhelmed 
with a whole flood of these kind of problems.
    But what is our alternative? I mean, as Congressman 
Sessions said, we cannot get tired. These problems have always 
been there, they are rooted in deeply seated social problems. 
If we back off, they just get worse. We cannot give up on 
school violence, we cannot give up on anti-drug efforts. We 
have to look at continually evolving solutions. And law 
enforcement is a key part of that, because even drug courts, 
which are one of the most innovative ways to work with young 
people and with adults who are abusing drugs, require the 
enforcement component behind it.
    Prevention programs, when you are talking to kids at school 
and say, we want you to do the right thing, because you would 
not want to wind up in jail the rest of your life. In other 
words, even when we do the carrots, if you do not have an 
effective stick with it, the carrots are not going to work.
    So this is a good hearing today. I am very interested 
because it has a diverse mix of the panel, of showing how these 
things interrelate in the community, and should be very helpful 
to us.
    Mr. Mica. Thank you. Mr. Souder moves that the record be 
left open for a period of 2 weeks.
    Mr. Souder. So moved.
    Mr. Mica. It is impossible at a congressional hearing to 
have everyone who would like to testify, testify, because of 
time constraints. So sometimes our panels represent a sampling, 
and other individuals or organizations who would like to submit 
statements for the record can contact Mr. Sessions or directly 
through the Chair, and their statements will be made part of 
the record. So without objection, the record will be left open 
for a period of 2 weeks.
    Again, this is an investigations and oversights 
subcommittee of the U.S. House of Representatives. We have this 
morning three panels. I will introduce our first panel, and 
then I will swear each of our witnesses in, which is customary, 
given our responsibility and charter.
    The first panel today consists of the Honorable Mike 
Anderson who is mayor of the city of Mesquite. The second 
witness is Gary Westphal, and he is the assistant chief of 
police of the city of Mesquite. We also have the Acting Special 
Agent in Charge of the Drug Enforcement Agency, Mr. Seib. The 
final witness is the Honorable Mike Pappas, who is the Dallas 
County Constable.
    If you all would please stand to be sworn.
    [Witnesses sworn.]
    Mr. Mica. Please be seated.
    The record will reflect that the witnesses answered in the 
affirmative. We will now proceed with our first witness, and we 
are indeed delighted to be in Mesquite, Mr. Sessions' district, 
and have as our first witness today Mike Anderson, the mayor of 
Mesquite.
    Welcome, sir, and you are recognized. I know you have a 
time constraint this morning, if you want to make your opening 
statement and leave, what we will do is we will go through and 
ask questions afterward. And we may submit to you any 
additional questions. You are recognized, sir.

STATEMENTS OF MIKE ANDERSON, MAYOR, CITY OF MESQUITE, TX; GARY 
  WESTPHAL, ASSISTANT CHIEF OF POLICE, CITY OF MESQUITE, TX; 
 FRANK SEIB, ACTING SPECIAL AGENT IN CHARGE, DRUG ENFORCEMENT 
        AGENCY; AND MIKE PAPPAS, DALLAS COUNTY CONSTABLE

    Mayor Anderson. Thank you, Mr. Chairman, and thank you, 
Congressman Sessions for bringing this hearing to our 
community. I want to thank you for the opportunity to speak 
today.
    I would like to begin by telling you about Michael. At the 
age of 15, Michael was well on his way to becoming nothing more 
than a statistic. He was a child growing up in a home with a 
drug-addicted father, and had already chosen a gang as his 
extended family. But gratefully, Michael was introduced to two 
programs created to motivate youth in Mesquite. And for once in 
his life, Michael was interacting with positive role models 
that seemed to actually care about his future and offering him 
guidance and support.
    By the time he was 17, Michael had not only left his gang, 
he became a teen leader for the Mesquite Police Department and 
spoke to younger teens about the dangers of drugs and gang 
involvement. He went on to graduate from high school and was 
hired by a large successful company in Dallas.
    But that is not the end of the story. While working at his 
new job, Michael, along with his supervisors, began to notice 
computers, printers and other office equipment disappearing 
from the company. Michael kept his eyes and ears open and he 
learned who was committing the thefts. He turned the names of 
these individuals in to his supervisor and when offered the 
known reward for the information, he refused.
    Michael has gone from being a member in a gang committing 
illegal acts to a successfully employed member of our society 
that helps prevent illegal acts.
    As mayor, and more importantly as a citizen of Mesquite, I 
am very proud of the programs our community has developed in 
the fight against drugs and the success we have achieved. Our 
current approach to this fight began in 1989 when Mesquite 
began seeing some disturbing trends developing with youth gang 
participation and gang-related criminal activity. The numbers 
were not significant yet, but we knew where we could end up if 
we denied there was a potential problem. And let me stress how 
absolutely essential it is for communities to look critically 
at themselves, and recognize and admit if drugs have become a 
problem in their community.
    The city manager and superintendent of schools found 
themselves discussing Mesquite's situation, and ultimately 
agreed that what we had was not just a police problem or a 
school problem, but ultimately agreed that what we had was a 
community problem. Gangs and drugs are a community problem that 
exist everywhere.
    That conversation set in motion the development of a 
community-based partnership known then as the Youth Services 
Steering Committee that brought together the resources of the 
city, the school district and the business and faith 
communities in our community to focus attention on the needs of 
Mesquite youth. Direction given to the committee was to look 
for ways to address this and other troubling trends involving 
our youth.
    Interesting and fortunately, the committee saw the solution 
and programs for all youth, not just the troubled youth. As a 
result, the Youth Intervention and Education Project was 
developed, and this project and its programs have had a 
significant effect on youth gang activity in Mesquite. Given 
its success, we have realized the Mesquite message for 
developing successful youth programs is to consider proactive, 
not reactive, approaches to youth issues. By investing energies 
on the front end of the problem, we think drug use can be 
prevented and many more lives saved.
    At this time, I would like to introduce assistant chief of 
police, Gary Westphal, who has been responsible for a lot of 
these programs since 1989, to speak to you in greater detail 
about Mesquite's experience and youth intervention and 
education projects. Gary.
    Mr. Mica. Thank you, Mayor, and you are recognized, Mr. 
Westphal.
    [The prepared statement of Mayor Anderson follows:]

    [GRAPHIC] [TIFF OMITTED] T1691.004
    
    [GRAPHIC] [TIFF OMITTED] T1691.005
    
    Mr. Westphal. Thank you for allowing me to come before you 
today.
    As the mayor mentioned, the Youth Services Steering 
Committee was formed and eventually became the Youth Service 
Advisory Committee. By brainstorming the specific problem at 
hand, one proposal came from the youth members serving on the 
committee that we feel confronts the problem and is effective 
in dealing with youth crime in Mesquite. This innovative 
project consists of three tiers. The project is called, as the 
mayor said, Youth Intervention and Education Project.
    By understanding of the way school-age youth perceive 
police, this could allow the committee to devise a plan that 
would eliminate false fears and perceptions and cause a decline 
in gang offenses. Specific results of these meetings included 
the inception of three programs to deal with cultural barriers, 
fear of violence, self esteem, teamwork building and education. 
The three tiers to the program include Slama-Bama-Jama, Evening 
with a Cop, and Ropes Challenge Adventures Course.
    Slama-Bama-Jama, at the top of the tier, is a high-profile 
event developed in 1990 that conveys an anti-gang, anti-
violence, anti-drug, alcohol message to the students through 
drama by utilizing cultural symbols such as music and 
athletics. An anti-gang violence message is acted out in skits 
by officers and high school students. The program is presented 
for youth at all city middle schools. Police officers and 
selected high school student actors use high-flying basketball 
stunts, contemporary music, smoke and lights combined with 
drama to get across their message of hope to the students in 
attendance.
    Evening with a Cop is the second tier of the Youth 
Intervention Education Project. This program consists of 
evenings where a balance of selected at-risk students and 
student leaders are given tours of the police department and 
then taken out at the city's rustic day camp. Students are 
driven in the department's mobile command unit for the evening 
meal, games and discussions around the campfire at the day 
camp.
    This particular tier of the program was designed to allow 
middle school students the freedom to develop a camaraderie 
with police officers, along with city and civic leaders of the 
community. One highlight of this particular tier is the first-
hand look at the police work as the group follows calls 
dispatched to district patrol units. Participating in this 
portion of the Youth Intervention and Education Program allows 
the students to experience a seeing real life through the eyes 
of police officers. The police department has expanded this 
program, offering it both high school and middle school 
students. We believe that both are age groups that can be 
effectively served through this program.
    The third tier of the Youth Intervention and Education 
Project is the Ropes Challenge Adventure Course, developed in 
1992. Officers meet with selected students from area middle 
school and high schools. The program usually begins on a Friday 
morning with students receiving a tour of the police 
department, which would include jail, communication, polygraph, 
internal investigation, patrol and court. Students are then 
picked up in the police department's mobile command unit, and 
chauffeured, along with officers, city and civic leaders, to 
the city-owned day camp site. Activities include basketball, 
volleyball and various games. Friday evening meals are by an 
open campfire at the day camp where the group can tell stories, 
sing songs and interact through topical discussions on any 
subject in a neutral, relaxed setting.
    A presentation is also given by a motivational speaker on 
various topics including anti-gang, anti-drug and sexual 
responsibility information. Often the mayor and city council 
members will participate with the youth to show their support 
to them and the program. You might see them pitching a tent, 
playing volleyball, throwing Frisbee, singing, dancing or just 
being involved in a one-on-one conversation with a student.
    On Saturday, the real fun begins when the students, 
officers and guests participate together in the ropes courses. 
The courses by name are the zip line, pamper pole and the wall, 
which physically and mentally challenge all participants. These 
courses are non-discriminatory in nature and designed to 
promote safety, teamwork, self esteem and build a camaraderie 
between students and officers.
    The reputation of the Mesquite Police Department has been 
enhanced immeasurably. Citizens, educators, business people, 
media representatives and others have all been exposed through 
these programs to professional police officers who are highly 
motivated, highly skilled, highly qualified and highly 
committed to the community and to the youth, the young people 
in our community. That obvious level of commitment, skill and 
dedication pays dividends in the many contacts between the 
police department and the public. The public is tremendously 
supportive of the agency, and the agency, in turn, is more 
service oriented. The synergy developed by that process is very 
effective in terms of the success of the police mission.
    The Youth Intervention Project has been seen as a catalyst 
to the decline in youth gang and drug activity in Mesquite for 
the past 7 years, as well as for the decrease in total crime 
experience of the city since the inception of this project. It 
can also be seen as the catalyst to the city's true commitment 
to community policing. With the success of this program came 
expanded programs designed to further buildupon the foundation 
formed by the coalition provided by the city, school, clergy 
and police officials willing to abandon territorial 
jurisdictions and work for the common good of this community.
    Thank you.
    Mr. Mica. Thank you for your testimony. And I would like to 
now recognize Frank Seib. He is the Acting Special Agent in 
Charge of the DEA office here. You are recognized.
    [The prepared statement of Mr. Westphal follows:]

    [GRAPHIC] [TIFF OMITTED] T1691.006
    
    [GRAPHIC] [TIFF OMITTED] T1691.007
    
    [GRAPHIC] [TIFF OMITTED] T1691.008
    
    [GRAPHIC] [TIFF OMITTED] T1691.009
    
    [GRAPHIC] [TIFF OMITTED] T1691.010
    
    Mr. Seib. Good morning, Chairman Mica, and distinguished 
members of the subcommittee. I am pleased to have the 
opportunity to appear before you today to discuss an issue so 
significant and essential to our Nation. Effective drug 
prevention programs and education in our school systems and 
communities is a vital component of the Drug Enforcement 
Administration's overall mission.
    Mr. Mica. I am not sure if they can hear you. Maybe we 
should move the mic. Thank you.
    Mr. Seib. Would you like me to start over, sir?
    Mr. Mica. No, go right ahead. I think we caught you so far. 
I wanted to make sure that everyone who is attending can hear, 
too.
    Mr. Seib. Effective drug prevention programs and education 
in our school systems and communities is a vital component of 
the Drug Enforcement Administration's overall mission. I would 
like also to express my appreciation to the subcommittee's 
continued support of DEA in its global anti-drug efforts.
    As you know, DEA is the only single-mission Federal agency 
dedicated to drug law enforcement. As such, the agency has 
developed the ability to efficiently direct resources and 
manpower to identify, target and dismantle drug trafficking 
organizations throughout the United States and abroad. These 
drug trafficking organizations are responsible for the 
proliferation of drugs, as well as significant levels of drug-
related crime in our Nation's communities.
    The Dallas metropolitan area, like many other metropolitan 
areas across the Nation, continues to experience increasing 
drug trafficking activity and incidents of drug abuse. Of 
particular concern is the alarming increase in the number of 
youth involved in drug abuse, and consequently emergency room 
and/or rehabilitative treatment. Adolescents in the Dallas area 
are experimenting with and abusing a wide variety of drugs. In 
particular, the increasing use of drugs such as Ecstasy and 
methamphetamine by our youth is quickly becoming one of most 
significant law enforcement and social issues facing our Nation 
today.
    Recent enforcement activities conducted by personnel from 
the Dallas field division demonstrate a rising popularity of 
club drugs, such as MDMA, GHB, Ketamine and LSD among young 
adults. For your information, we have provided the subcommittee 
with a report entitled, ``Club Drugs in the Dallas Field 
Division.''
    Today, young adults are using these drugs individually and 
in combination at all-night raves and night clubs in Dallas and 
surrounding areas. These rave functions, which are parties 
known for loud techno music and dancing in underground 
locations regularly host several thousand teenagers and young 
adults who use MDMA, LSD, GHB, Ketamine and methamphetamine.
    In addition to the increase in club drug abuse in the 
Dallas area, heroin abuse is also the focus of national 
attention in north Texas. As many of you recall, Plano, TX, a 
city located immediately north of Dallas, reported 14 heroin-
related deaths involving teens and young adults in 1996 and 
1997. Shortly after the heroin overdoses in Plano received 
widespread attention, it became apparent to law enforcement 
officials that northeast Tarrant County, which is just above 
Fort Worth, faced a serious heroin overdose problem as well. 
From August 1996 to August 1999, 53 heroin overdoses occurred 
in northeast Tarrant County, 25 of the 53 resulted in death.
    DEA in the Dallas Field Division recognizes that the 
nationwide anti-drug effort requires a multi-faceted approach. 
Direct drug law enforcement is a major component of this 
strategy, however involvement in demand reduction and 
community-based programs is equally important. Demand reduction 
and community-based programs focus specifically on local youth 
and are designed to drive a wedge between these young 
individuals and a future of drug abuse and drug-related crime. 
In addition to these programs, the Dallas Field Division 
initiates intelligence-sharing conferences.
    Given the nature of today's hearing, I would like to 
briefly discuss some of the demand reduction and community-
based programs instituted by the Dallas Field Division. Since 
1987, DEA has devoted one special agent from each field 
division to demand reduction program. Demand reduction program 
has several national priorities, which include prevention 
efforts in the areas of public awareness, community coalitions, 
drug-free business initiatives, supporting drug abuse 
resistance education, DARE, and related education programs, and 
re-engineering of national parents movement.
    Among many other activities, Dallas Field Division 
personnel train DARE officers and school resource officers.
    Recently the Dallas Field Division received the National 
League of United Latin American Citizens Award for 
participation in Target Kids in Court Program. This program is 
designed to assist children in the court system by reducing red 
tape in the adoption process, and to end agency turf battles 
that leave neglected children in limbo. The Special Agent in 
Charge of the Dallas Field Division serves as a member of the 
steering committee in the Target Kids in Court.
    The second program is the Starfish Foundation which is a 
non-profit corporation founded in Plano to fight the teenage 
heroin addiction problem plaguing the city. The Dallas Field 
Division serves as a consultant to the Starfish Foundation, 
sharing its expertise on the local drug problem.
    Furthermore, we regularly attend events by Nuestra Vida, an 
organization with the purpose of increasing opportunities for 
parental involvement in the lives of their children at school 
and home. The Nuestra Vida Committee holds several fairs and 
town meetings during the year.
    In conclusion, it is quite evident that the increasing 
power and diversity of drug trafficking organizations operating 
throughout the United States and abroad demands an equally 
authoritative and creative response. These drug trafficking 
organizations seek to entrench criminal enterprise in modern 
society. They attempt to lure the youth of this country into 
the dark world of drug abuse and crime on a daily basis. The 
DEA and the Dallas Field Division are committed to developing 
and employing multi-faceted strategies to combat drug 
trafficking and drug abuse. The Dallas Field Division will 
vigorously investigate and aid in the prosecution of drug 
traffickers operating in the Dallas area. As always, demand 
reduction and community involvement will remain a high priority 
in the Dallas Field Division's anti-drug strategy. In many 
cases, these programs offer drug education, drug prevention 
information to vulnerable youth.
    It is also important to note that we strive to enhance 
relationships between local youth and law enforcement 
personnel. These programs can and unquestionably do make a 
difference.
    Once again, Mr. Chairman, thank you for inviting me to 
appear before the subcommittee. I look forward to any questions 
that you may have.
    Mr. Mica. Thank you. Now we will hear from Mike Pappas, who 
is the Dallas County Constable. We will have questions after 
his testimony.
    You are recognized, sir.
    [The prepared statement of Mr. Seib follows:]

    [GRAPHIC] [TIFF OMITTED] T1691.011
    
    [GRAPHIC] [TIFF OMITTED] T1691.012
    
    [GRAPHIC] [TIFF OMITTED] T1691.013
    
    [GRAPHIC] [TIFF OMITTED] T1691.014
    
    [GRAPHIC] [TIFF OMITTED] T1691.015
    
    [GRAPHIC] [TIFF OMITTED] T1691.016
    
    [GRAPHIC] [TIFF OMITTED] T1691.017
    
    Mr. Pappas. Thank you, Chairman Mica, Mr. Souder, welcome 
to Texas. Glad to have you here. Again, thank you for the 
opportunity to give this statement.
    Mr. Mica. You might want to move the mic. Go right ahead.
    Mr. Pappas. Again, welcome to Texas, and thank you for this 
opportunity to say a few words.
    We see the results of alcohol and drug abuse and the way it 
affects each and every one of us every day, whether as a 
parent, a relative, a neighbor or in law enforcement. The 
effects can be seen in higher insurance rates, higher prices at 
the grocery store or merchandise department stores. You 
probably even see it affect our taxes. Drug and alcohol abuse 
is a problem that faces each and every one of us every morning 
we wake up. I do not care whether you are from the family of a 
doctor, an attorney, teacher, plumber, fast-food server, police 
officer or any other profession. No one is immune, regardless 
of their position or financial status in the community.
    Each and every one of us has choices to make, good or bad, 
and it is the choice that you make that affects the people who 
are around you. We need to start helping our youth make the 
right choices at a younger age now, because they are 
experiencing drugs and alcohol at a younger age than when we 
were growing up. We have to help them see that the choices they 
make, good or bad, have responsibility and consequences. They 
will be held accountable for their choices.
    I had a younger brother who made some good choices in life, 
but also some very serious, bad choices. I come from a middle 
class family, went to a Catholic school and have loving and 
caring parents, relatives and neighbors. Somewhere along the 
way, my brother, who was brought up in the same environment, 
made the decision to try alcohol and probably marijuana. He was 
fairly popular in school and made good grades. Whether it was 
peer pressure or other outside influences, that affected his 
decision to try alcohol and drugs. I do not know. But it cost 
him his life.
    Drugs and alcohol enhances a teenager's perception that 
they are immortal and invincible, that nothing bad will ever 
happen to them because they are young. Mark found out the hard 
way that this just is not true.
    Waiting to teach the younger generation to make the right 
choices in junior high and high school is way too late. Kids 
are introduced at a younger and younger age to situations that 
require difficult choices. They are not any more mature than we 
were at that age, but with today's technology, they see and 
experience more adult situations a lot more.
    When I took office in January 1993, we put a program in 
place called Together Against Drug Abuse. This program is 
underwritten by private business owners and now sponsored by 
the Texas Masons. A uniformed law enforcement officer presents 
a class once every 2 weeks throughout the school year to the 
fifth grade classes in elementary schools. The program was in 
three schools in 1993 and has since grown to 32 schools, 
presented to over 3,400 students per year. This program helps 
teach the youth to make the right choices and how to deal with 
peer pressure that they face this day and time. Our motto is, 
``I am special,'' and we reinforce, God does not make a nobody. 
Teaching children to have self esteem and the pride in making 
right choices gives us all a brighter future. I truly believe 
this program works.
    Also as a victim, I have personally experienced the results 
of teenagers using drugs and alcohol. I woke up one morning and 
walked outside to pick up my newspaper and saw a neighborhood 
that had been damaged by four individuals high on 
methamphetamines. Cars were spray painted, tires were slashed, 
acid was poured on the vehicles, houses had been egged, the 
church had been spray-painted in graffiti and burned. We soon 
found out that we were victimized by some of our own 
neighborhood teenagers who had been abusing drugs and alcohol 
for some time. The results of their choices were two did time 
in Federal prison, one in State prison and the youngest spent a 
year in the juvenile justice system. And we cannot get the 
hundreds of thousands of dollars of damage sustained in the 
neighborhood.
    My experience in my family life, my profession as law 
enforcement officer and my involvement in the community, those 
who choose to abuse drugs and alcohol pay the biggest price, 
but we all carry the burden of their choices.
    [The prepared statement of Mr. Pappas follows:]

    [GRAPHIC] [TIFF OMITTED] T1691.018
    
    [GRAPHIC] [TIFF OMITTED] T1691.019
    
    [GRAPHIC] [TIFF OMITTED] T1691.020
    
    [GRAPHIC] [TIFF OMITTED] T1691.021
    
    [GRAPHIC] [TIFF OMITTED] T1691.022
    
    [GRAPHIC] [TIFF OMITTED] T1691.023
    
    Mr. Mica. Thank you for your testimony, and I thank each of 
our witnesses for their testimony.
    I will start with a few questions if I may, and I will 
yield to other members.
    First of all, to the Assistant Police Chief, how are you 
financing some of these prevention programs that you described? 
Is this strictly with local and State funds or are there any 
Federal funds involved?
    Mr. Westphal. No, sir. The Youth Services committee became 
a non-profit organization, and accepts donations through the 
local civic groups. And then of course, their salaries.
    Mr. Mica. Are taxpayer dollars going into it, too?
    Mr. Westphal. Yes, sir. Yes, sir. The salaries of the 
police officers, yes.
    Mr. Mica. Is that local city or State funds?
    Mr. Westphal. That would be city funding.
    Mr. Mica. You may have to pass this mic around, sir.
    Mr. Westphal. That, of course, would be city funding on the 
salaries of the police officers.
    Mr. Souder. But only salaries? That is the only funding?
    Mr. Westphal. Yes, sir.
    Mr. Mica. Are there any Federal funds coming in to these 
projects that you are aware of?
    Mr. Westphal. No, sir.
    Mr. Mica. Would it be beneficial, if we could do it without 
too many strings attached, to make funds available for these?
    Mr. Westphal. Oh, yes.
    Mr. Mica. It would?
    Mr. Westphal. Yes, sir.
    Mr. Souder. Did you ask about community block grant with 
that? You do not think there is any community block grant 
money?
    Mr. Mica. The question from Mr. Souder was, do you think 
there is any community block grant money that has gone to the 
State or came from State to local?
    Mr. Westphal. It just so happens that this year, the Slama-
Bama-Jama program requires a considerable amount of equipment, 
at an unusual cost. And this year, the block grant money has 
been used to replace a lot of the equipment because this 
program has been in session for about 10 years.
    Mr. Mica. So there could be Federal money through that 
program?
    Mr. Westphal. Yes, sir, just in this instance, yes.
    Mr. Mica. Or in that program.
    One of the problems we have at the Federal level is we try 
to make funds available, but we are now trying to do that 
through the State and then get as much discretion. We find that 
creating these Federal programs, you create Federal 
bureaucracies and regional bureaucracies, etc., that end up 
skimming some of the overhead and complicating or 
bureaucratizing the process.
    I heard the DARE program mentioned. Do you think the DARE 
program is successful?
    Mr. Westphal. Well, in Mesquite, we have a similar program 
called LETS, Law Enforcement Teaching in Schools, and it 
parallels DARE. It began with Federal money and has continued 
on.
    Mr. Mica. Now privately funded?
    Mr. Westphal. Yes, sir. Well, the salaries of the officers 
are funded through the city.
    Mr. Mica. Let me ask you another question. We funded a $1 
billion new program on drug education and primarily focusing on 
media buys. But it is a pretty extensive program. It is a 
combination of Federal funding and to the tune of $1 billion 
over 3 years, plus a requirement that there be an equal match 
from the private sector, either in donations. Some of that you 
may have seen on television in ads and things. Can you give us 
your candid assessment of that program to date?
    Mr. Westphal. Well, I guess I am not as aware of that as I 
should be.
    Mr. Mica. Well, that is a very candid assessment, because 
it is designed to make people aware, so it is obviously not 
gotten the job accomplished.
    And we are looking very critically at that. It is run now 
by the Office of Drug Control Policy, but a substantial amount 
of taxpayer dollars, plus donated services.
    A question now, if I may, for our DEA representative. You 
talk about Ecstasy and meth in this area. Could you describe 
the extent of the problem? And the whole Dallas or Texas area 
that you may have some knowledge of.
    Mr. Seib. Mr. Chairman, the resident DEA's investigation on 
methamphetamine and the rave drugs, per se, methamphetamine for 
one, looking at our stats in 1997, we may have done 40 or 50 
labs at the most in Oklahoma. Now be advised that DEA Dallas 
does handle all of north Texas and the State of Oklahoma. In 
Oklahoma alone this year, we will most likely do in excess of 
300 methamphetamine labs. That is where DEA participates in the 
seizure. You can almost double that when you look at the State 
and local lab seizures. So there will be close to 1,000 labs.
    Mr. Mica. So a dramatic five-times----
    Mr. Seib. That is a dramatic increase. There may have been 
50.
    Mr. Mica. Well, one of the things that we find with the 
meth being domestically produced, and it does take precursors, 
I might ask, where are you seeing the precursors come in this 
area, just for the record?
    Mr. Seib. You know, Mr. Chairman, I am not exactly certain 
where the chemicals are coming from. We know they are coming in 
from Mexico and Europe, arriving into the Dallas area. We do 
have a diversion program here in Dallas where we monitor 
chemicals and chemical companies.
    Mr. Mica. You did say that DEA is now trying to work with 
some of these prevention and education programs, is that 
correct?
    Mr. Seib. Yes. We have several. I mentioned a few in my 
presentation. We are also working with a local operation, it is 
called ALOUD, it is Alliance on Underage Drinking. I sit on the 
steering committee of the ALOUD committee. We also participate 
in the Explorer Program, a law enforcement explorer, where we 
work with the 15, 16-year-old Explorers in law enforcement 
related activities, drug identification, areas like that.
    We activated another program not long ago, primarily 
initially, it was directed at the Hispanic community. It was 
known as Operation RESCATE. It is an 800 line where they can 
call in and provide information, anonymous phone calls. To 
date, we have had over 1,000 phone calls. I am looking at now 
expanding Operation RESCATE into the black and a overall 800 
line where anyone can call in. Before, we had numbers from 
other communities and very little from the Hispanics, so we 
went with Operation RESCATE which translates to operation 
rescue.
    Mr. Mica. Is the local office making a concerted effort to 
deal with the media, and also the schools, to convey the danger 
and the problem that we are facing, particularly with Ecstasy 
and methamphetamines?
    Mr. Seib. Yes, sir, we are.
    Mr. Mica. Could you describe them?
    Mr. Seib. One program is a red ribbon campaign. I think 
last year we reached out to approximately 10,000 students 
within the metroplex. We go out to the schools, it is during 
October. We explain the dangers of drugs, importance of staying 
away from drugs. We work, again, with the DARE program, we have 
officers assigned to--agents assigned to our demand reduction 
program. And right now it seems to be working very well.
    Mr. Mica. Constable Pappas, you described a tremendous toll 
that narcotics and alcohol abuse took on your family, I guess, 
with the loss of your brother, and described even the impact on 
your neighborhood. And you deal at the local level, and 
unfortunately what you described is all too common today. This 
epidemic is reaching every element of our society, not only of 
the minorities or the inner cities, but suburban. I conducted a 
hearing a little over a year ago when I took over this 
chairmanship in one of my prosperous communities, and I think 
we had two city council members, and one city of Lake Mary 
council member from that jurisdiction told us how his son, I 
believe it was, had robbed and committed felonies and 
everything for illegal narcotics. And the other one told how he 
took the kids to church and everything and still lost them to 
narcotics.
    From your local law enforcement and your personal 
experience, and if you were in our position at the Federal 
level, what are your recommendations as far as education, 
prevention, what can we better do with Federal resources and 
dollars to get a handle on this situation? Maybe you could 
elucidate?
    Mr. Pappas. I would probably offer more programs to get 
parents involved, and to get the business leaders in the 
communities involved, too.
    Mr. Mica. Well, the problem we have with that, Mr. Pappas, 
is every time we start a program, we create an incredible 
bureaucracy in oversight. We are trying to get away from 
creating the programs and letting us be sort of a partner and 
get the funds to States and the local communities, and then let 
them make the decision. Is that an improper approach?
    Mr. Pappas. No, what you said is correct. I agree with 
that. And that is one of the things we are doing now in this 
Together Against Drug Abuse program that we have in our office. 
It is now statewide, thanks to the Masons, but that is a 
program that does not accept any kind of Federal funds or State 
funds at all to operate.
    Mr. Mica. Well then, the other thing we find is, most of 
the programs that are most effective are either community or 
faith based. Maybe it was the mayor mentioned some of the 
interaction with faith-based organizations, but once you get 
Federal funding involved, we have people screaming from the 
rafters that we cannot cooperate, contribute or participate 
with those organizations.
    What is your opinion and recommendation, again, as to how 
we proceed?
    Mr. Pappas. Well, one way to proceed maybe would be to 
contact the different agencies in a particular community and 
just see what different programs they have, and see how you can 
maybe combine those programs and maybe give them the support 
they need.
    Mr. Mica. Would you support the use of Federal funds to 
some of these faith-based organizations, or money going through 
local communities in the form of block grants and then allowing 
them to participate, or not?
    Mr. Pappas. Yes, I would.
    Mr. Mica. Thank you. I yield to Mr. Sessions.
    Mr. Sessions. Thank you, Mr. Chairman. I apologize for my 
absence for a minute. We had two Hispanic TV stations that were 
intensely interested in what is going on today, and they asked 
the question, which is being asked here, how do we go about 
getting parents involved. And that is the essence of some of 
what Chairman Mica is alluding to.
    I have found that the power model that Mesquite is using is 
very important, where it involves the business community, 
schools, law enforcement, and then, evidently, Mr. Westphal, 
junior high age children, is that correct?
    Mr. Westphal. Yes, sir.
    Mr. Sessions. Is there a mandatory element to this or is it 
all people who would be asked and it was by just acceptance?
    Mr. Westphal. Well, of course, anyone can participate in 
any facet of the community. And I think, in terms of what 
Congressman Mica was talking about, on the funding and each 
community, and how to set up the programming is, what we found 
through the suburbs in Dallas is that each community is very, 
very different, and we have to set them up--the programs have 
to be set up to accommodate that community. Some of our 
programs may or may not work in another community, and actually 
may work very, very well in some communities.
    So I do not know if that answered your question, 
Congressman.
    Mr. Sessions. I think it did. In other words, you think 
that what you did works well in Mesquite, TX, but it may not 
work somewhere else as easily?
    Mr. Westphal. Or possibly could work better, but may not 
work in a community that does not accept it well or does not 
want to participate.
    Mr. Sessions. Mr. Seib, if you could tell us, in your 
opinion--and I am sorry that I missed your testimony for a 
minute--we are talking primarily about schools today and 
communities, but with an emphasis on schools. Local law 
enforcement problem, DEA problem? Should the DEA be more 
involved in our schools?
    Mr. Seib. Yes, we should. We should be more involved. We 
are involved now, but the way we get more involved is through a 
cooperative effort with State and local agencies. We work with 
police departments, we work with the sheriffs departments, and 
we go into the schools, like I said earlier, on the DARE 
programs, the Red Ribbon program, the Explorer program. We have 
different ways to go in.
    With additional funding, personnel, we could do more. But 
right now, there is a certain part of our budget that goes 
toward demand reduction. It is divided between the 20 field 
divisions, and I think we are making inroads to the children, 
to the schools. But with additional funding and manpower, more 
could be done. But to do it better, we go out to the State and 
local agencies.
    Mr. Sessions. Do you have contact with, let us say for 
instance, a school district who would contact you or do you 
refer them to their sheriff's department or local police, or do 
you receive questions from and information from local law 
enforcements to where then you work with them, or do you view 
them as being the primary contact, and only if information 
leads you to the schools, or is it your mainstream and you know 
that is where a lot of the problems are and you are working 
directly? Is it a daily interaction or is it an as-needed 
interaction that you have with the schools?
    Mr. Seib. It is more of an as-needed. We are usually 
contacted by the schools, and any time we are called, we go out 
and we put on either a DARE presentation or some kind of drug 
awareness program. I think our budget in Dallas calls for, I 
think it is right at $50,000 to be used in demand reduction and 
for our actual DARE and Red Ribbon program. But we do work with 
the State and local agencies. For example, if we go into Flower 
Mound, to go to Flower Mound schools, we will contact Flower 
Mound Police Department and say, we are going to a school, do 
you want to participate? And quite often, they do the same. 
They will call us and say, we are having a particular function, 
does DEA want to participate? And when we can, personnel-wise, 
we do.
    Mr. Sessions. Mr. Westphal, are you active in MISD, with 
MISD in the schools?
    Mr. Westphal. Yes, sir.
    Mr. Sessions. Do you do it through your officers who are on 
campus? Do you utilize them or do you actually know when you 
have got a problem and you will go in and actively work in the 
schools?
    Mr. Westphal. Well, I do not participate on an individual 
basis, but we have 14 officers assigned in Mesquite Independent 
School District, and they address any number of problems at the 
LETS level, fifth grade, and also LETS revisited at the seventh 
grade, and also the school resource officers at the middle 
school and high school level.
    Mr. Sessions. Constable Pappas, when you have been in 
contact--and I know it is mostly in the city of Dallas area, 
although you work for the county, what do you find is the 
feedback from parents when you try and work with parents on 
what perhaps might be a first offense or beginning of a 
problem? What is the general feedback that parents provide you? 
Do they care? Are they interested? Do they appreciate what you 
are doing?
    Mr. Pappas. The parents are usually fairly supportive of 
what we are doing out there. But you know, like I said earlier, 
or like was said earlier, drugs in my area are readily 
available because it is a higher-income area and they can 
afford the drugs. But we get a lot of support from the parents 
in the programs that we are doing out there, and they are 
usually fairly supportive.
    Mr. Sessions. Do you think parents recognize how to spot 
problems, or when you come to them, that they recognize that it 
is not a slap on the wrist, but perhaps could lead to a 
lifetime on drugs or perhaps incarceration or their death?
    Mr. Pappas. I think a lot of parents do recognize a 
problem, but I think sometimes those parents tend to ignore 
that problem also.
    Mr. Sessions. And let law enforcement pick it up first?
    Mr. Pappas. Either that or that it will go away.
    Mr. Sessions. They think it will go away?
    Mr. Pappas. They think it will go away.
    Mr. Sessions. How effective do you believe the schools are 
in spotting the problems and then doing something about it?
    Mr. Pappas. I think the schools are fairly effective at 
spotting the problems and able to deal with it with their 
police departments.
    Mr. Sessions. So from a local perspective, you would say 
you hear from the schools, you work well together, and you 
believe that they spot problems, or you do, too, because you 
have a working cooperation with your officers in our schools, 
and that they do not blow something off, that they do something 
about it?
    Mr. Pappas. Yes.
    Mr. Sessions. OK. Thank you, Chairman.
    Mr. Mica. Thank you, Mr. Sessions. Now yield to the 
gentleman from Indiana, Mr. Souder.
    Mr. Souder. I like Mr. Pappas' statement, clearly used to 
testifying in front of our committee. I mean, you have joined 
distinguished people like Attorney General Reno and Craig 
Livingstone, all who also took the oath as we did our 
investigation. I like usually fairly supportive, which means 
that sometimes they are not because they are in denial and so 
on.
    Just for the record, because particularly after Mr. 
Westphal's comments that each place is a little bit different 
so that those who read this testimony later, and including me 
can understand, is a constable like a sheriff?
    Mr. Pappas. Very similar. The only difference between the 
constable and the sheriff is, we do not manage the jail. We put 
them in jail, we do not manage the jail.
    Mr. Souder. All right. Dallas County, I saw a reference in 
your program guide that it includes Irving and Garland School 
Districts?
    Mr. Pappas. They are not in our precinct, but we do have 
schools in those particular school districts. My area covers 
primarily Dallas, primarily downtown, north of the tollway to 
LBJ, LBJ east to the Garland, Mesquite city limits and then 
south and back to town.
    Mr. Souder. And to describe the areas that we are mostly 
dealing with here, partly Mesquite, it would be middle, upper-
middle more, or is there a mix?
    Mr. Pappas. It would be a big mix.
    Mr. Souder. What percent Hispanic and minority?
    Mr. Pappas. I would say probably 20 percent Hispanic. You 
are talking about racial-wise, correct?
    Mr. Souder. Right. Racial and----
    Mr. Pappas. I would say probably 20 percent Hispanic, maybe 
that much African-American and the rest is Caucasian.
    Mr. Souder. So it is a pretty diverse mix in this area?
    Mr. Pappas. It really is, yes.
    Mr. Souder. And that would be even more true if you moved 
toward the center part of the area you described in your 
precinct?
    Mr. Pappas. No. As you get close to the center of it, or 
the north of it, northeast of it and northwest of it, you have 
Highland Park, you have Lake Highlands, you have North Dallas, 
and you have predominantly Caucasian area with upper income.
    Mr. Souder. Even inside the city?
    Mr. Pappas. Yes.
    Mr. Souder. So it is not like a typical, maybe like the 
north side of Chicago, it is not like a typical urban area 
although you are starting to see this pattern with different 
suburbs, but it is helpful.
    As someone who strongly believes that, without kids 
changing their self esteem, without understanding that they are 
loved and how they are created, I believe that is fundamental 
because drug abuse is not what starts the problem, it is 
something else and then they go to an artificial substance. But 
you said in here, we reinforce, God does not make a nobody. Is 
that part of the program?
    Mr. Pappas. It is not really a religious program. It is 
just that that is the only thing we really mention about God in 
the whole program, is that God does not make a nobody. The 
program is primarily geared toward just making the correct 
choices in life, and dealing with peer pressure. Like I said, 
there is no religion tone really to it, except for that one 
statement.
    Mr. Souder. That is a wonderful statement, I did not mean 
to discourage you with it.
    Mr. Pappas. You are not discouraging me, I just wanted you 
to know that.
    Mr. Souder. I wanted to pursue some particular questions 
with Mr. Westphal, some technical things. You said you had 14 
officers in the schools?
    Mr. Westphal. Yes, sir.
    Mr. Souder. Out of how many total officers do you have?
    Mr. Westphal. 202.
    Mr. Souder. And you made a reference, and the mayor did 
also, that there has been, particularly in Mesquite, you were 
worried about the trend line, you plunged in and there has been 
a drop in crime?
    Mr. Westphal. Yes, sir.
    Mr. Souder. Has there been a drop in gangs?
    Mr. Westphal. Yes, sir.
    Mr. Souder. How do you measure that? Number of estimated 
members?
    Mr. Westphal. Well, there are 31,336 students in the 
Mesquite school district. Less than one-half of 1 percent of 
those are actually the kids that we have to target.
    Comparatively speaking, our numbers, compared to some of 
our other suburban cities in the metroplex are tremendously 
down in terms of gangs and gang members.
    Mr. Souder. Arrests?
    Mr. Westphal. Sir?
    Mr. Souder. By arrests, is that what you mean?
    Mr. Westphal. Well, by the actual members of gangs, by the 
actual number of gangs, and by the actual offenses committed by 
gangs.
    Mr. Souder. And then have you also seen a drop in drug 
crime?
    Mr. Westphal. Well, that is a very difficult question. 
People ask us that at our crime watch meetings, they ask us at 
PTA meetings, and to just tell you the truth, I do not know how 
to comment to it, because just as sure as I think that we are 
getting a handle on it, or at least getting into the middle of 
it, something will surface, something else will happen, and 
then there will be a dozen kids involved in some type of drug, 
the drugs that Mr. Seib described, or something new that they 
concoct.
    Mr. Souder. But you have not--one of the things in saying 
that there has been a drop in crime, has there been a--given 
that there are bumps, have you seen homicides dropped, dealing 
dropped, in a general trend line?
    Mr. Westphal. Yes, sir, that has dropped. As Mr. Seib 
mentioned about Plano, is that in Mesquite we have not had the 
heroin problem that some of the other cities have experienced. 
But that does not mean it is not there. We have indications 
that it is there, but the overdose and the deaths have not 
plagued us, yet.
    Mr. Souder. In this period, since you have started these 
programs, have you had any change in demographics or has the 
population mix stayed roughly the same, income mix roughly the 
same?
    Mr. Westphal. It is almost exactly the same. Mesquite has 
no predominantly black or Hispanic or white areas. It is a 
well-described mixture of people.
    Mr. Souder. In the specifics of the Slama-Bama-Jama, you 
said that after review in 1992, you added a casket, and you 
used the words, involving students' suggestions. Did the idea 
for the casket come from the students themselves?
    Mr. Westphal. Well, one of the things we felt like we 
should do early, we did not. In the very beginning we just did 
what we thought was right. And then not too long, probably 
around 1991, we got kiddos involved. And one of the things that 
they said that they wanted, after you got past the beer in the 
locker rooms and shorter school days, that kind of thing, they 
wanted to feel safe. They wanted to feel safe. They wanted to 
feel safe at home, they wanted to feel safe at school and they 
wanted to be comfortable around police officers.
    So one of the things that the kids said is, we need to do 
something to get the other kids' attention. And so we have a 
friend at Anderson-Clayton Funeral Home, and after speaking 
with him, he offered to give us a casket. So we have a funeral 
march, and then we have kid, a high school student that is 
always a role model student, that pops out of this casket, 
portraying himself as a ghost in front of all the other kids. 
And it is pretty dramatic. And it has had a lot of impact.
    Like I said, in terms of the school district, we only deal 
with about 150 or 160 kids on average, on a yearly basis, and 
so we really feel good about that.
    Mr. Souder. In 1995, you added a jail?
    Mr. Westphal. Yes, sir.
    Mr. Souder. A similar process?
    Mr. Westphal. Yes, sir. Our officers put a jail together 
with PVC pipe, painted it black, and entered it into the 
program as actually showing the students--we have student 
participants and the officers, showing them locked up in a 
jail. And then the officers and the students give a testimony 
as to, I would not be here if it was not for drugs and gangs. 
And that is just an added version.
    Mr. Souder. In your student groups, have you seen any 
different reactions from kids from middle, upper-class families 
versus your other groups at risk? In other words, those kids 
get involved in drugs in substantially different ways.
    Mr. Westphal. Not really. You know, a comment about, I 
think Congressman Sessions mentioned about the parental 
involvement. It is usually either/or. Either they are very, 
very supportive, or they are very much in denial, or they do 
not want to be involved at all. And usually you find that those 
parents are involved in drugs themselves.
    And so the balance there with the kids, it does not really 
have a whole lot to do with the economic lines, as far as 
participation or as far as receptive to the program. At least, 
that is my opinion.
    Mr. Souder. We had a hearing in Phoenix where we actually 
had a young person say that the parent of a friend was laying 
out the lines of cocaine on the table when she and her friends 
came over to their house after school--talk about parental 
involvement, that is not what we need.
    Mr. Westphal. Yes, sir. Excuse me, but I could give you a 
very real example. This school you are sitting in now, at its 
inception, had a lot of problems. And it has become a model 
school. I cannot say enough good about this high school, 
because in recent years--well, in early years, back in the late 
1980's, there was a shooting on the parking lot, a drive-by 
shooting. But this school has become a model school as a result 
of a lot of things. But the partnerships that are involved with 
the school district and ourselves with the city, and clergy, 
and also just civic groups.
    Mr. Souder. One more question from Mr. Seib. You said that, 
in addition to Plano, that northeast Tarrant County was hit by 
the heroin, and had like 15 deaths as opposed to 12?
    Mr. Seib. Yes. Tarrant County had, I think it was 53 
incidents of heroin overdose.
    Mr. Souder. Twenty-five deaths?
    Mr. Seib. And I think it was 25--23 or 25 of them resulted 
in deaths.
    We have a new program that goes on, it is really an 
anonymous program, we are working with the hospitals. We can 
identify the heroin overdoses. Now we have a data base that we 
are trying to get all of the community hospitals to get just--
no name, just the information, tell us, so we can see how big 
of a problem we actually have.
    Mr. Souder. Could you explain--I mean, you look at this 
whole Dallas metro area, and you have Fort Worth and Dallas and 
all the suburbs, you have got Plano over here, you have got 
northeast Tarrant over here. Why would you have 25 deaths here, 
and 14 here? What is the dynamic that does not spread this 
evenly? Is it a particular dealer, because Plano and northeast 
Tarrant are very close to each other.
    Mr. Seib. They are close to each other, yes.
    Mr. Souder. Was there a dealer or a gang?
    Mr. Seib. It was a gang, it was a group of dealers. At that 
time, it was Hispanic dealers. And it was all from middle to 
upper-class kids. They were 14, 15 years old.
    Mr. Souder. So the variables, you would say first off there 
needed to be money?
    Mr. Seib. Yes.
    Mr. Souder. There are other areas of money around Dallas, 
too, where they had kids?
    Mr. Seib. Not to that level. That is what we are trying to 
find by working with the hospitals, to see exactly where we are 
before we have the deaths coming in, where we have--we do not 
know how many people are going to the emergency rooms and being 
treated for heroin overdoses.
    Mr. Souder. Why would you--you have a statistic in here 
that says the marijuana increased into the local hospitals by 
70 percent or whatever. Why would you not have that for heroin?
    Mr. Seib. Right. But they were not reporting heroin 
overdoses.
    Mr. Souder. Why would you not report heroin overdoses?
    Mr. Seib. I do not know that. At this time, I do not, but I 
will get you an answer.
    Mr. Souder. I learned in my home area they did not have a 
test for LSD and accidents that they were reporting was just 
kind of random accidents. It turned out some of these kids were 
on LSD. But that is an odd thing to not catch.
    Mr. Seib. I will get you an answer.
    Mr. Souder. So dollars, distribution through a certain--it 
is interesting because I saw a similar thing down in Orlando, 
why epidemics like this will hit a certain area so hard, and 
not even be hardly visible elsewhere.
    Mr. Seib. We do not have an answer.
    Mr. Souder. We have heroin deaths and other----
    Mr. Seib. No significant numbers that we are aware of.
    Mr. Souder. What about the----
    Mr. Seib. And again, these are the ones that are coming--
these are coming out to the forefront. We do not know that it 
is some deaths from another area where we have not identified 
them as heroin deaths yet.
    Mr. Souder. So it could be there.
    Mr. Seib. They could be there, but we are not seeing the 
numbers, like in Plano. And again, it was the parents coming 
out in Plano and saying, we have this problem. We are asked 
sometimes down in downtown Dallas, why are we not doing the 
same thing in Dallas that we are doing in Plano? Because the 
citizens did not make us aware in Dallas the way they did in 
Plano.
    Mr. Souder. Are the purity levels higher in this area than 
they are in other parts?
    Mr. Seib. Yes, they are. We are seeing heroin sometimes as 
high as 80 percent.
    Mr. Souder. Is that varying by parts of your jurisdiction?
    Mr. Seib. Yes, it is. But in the area, we have seen heroin 
as high as 80, and I remember working heroin in El Paso in the 
early 1980's to mid-1980's, we were having usable heroin was 2 
or 3 percent. So kids are buying, they do not know what they 
are getting, and they are getting 80 percent.
    Mr. Souder. And obviously that is because they water it 
down for price reasons?
    Mr. Seib. Right.
    Mr. Souder. So in effect, higher income areas are more 
vulnerable to more potent things because their kids have the 
money to buy the more potent heroin?
    Mr. Seib. Yes.
    Mr. Souder. Interesting.
    Mr. Seib. We had the same problem with the Dallas Cowboy 
that died last year around Plano. Same type of thing, the 
heroin overdoses. They do not know the percentage or the purity 
of the heroin that they are buying.
    Mr. Souder. That would be a warning to many middle and 
upper-class families, where they have the two-parent families, 
where they think they are immune. And yet actually, their kids 
may be at more life/death risk, not necessarily success risk 
and other health risks, but because it is high-income areas 
that we are seeing the worst death rates.
    Mr. Seib. Right. And one of the breaks----
    Mr. Souder. Not the shooting related with it, but the 
actual overdose.
    Mr. Seib. One of the breaks in the Plano investigation, I 
think one of the guys that was distributing the heroin made a 
statement to someone and said, look what my heroin is doing in 
Plano, it is so good.
    Mr. Souder. Let me ask you one other thing, the gangs that 
you saw that brought that into Plano and northeast Tarrant, 
were they living in that area or were they gangs that came in 
from the outside?
    Mr. Seib. Some were living in the area but they came more 
from the Dallas area into Plano.
    Mr. Souder. The interesting thing is that often suburban 
money has--which I have heard in a lot of inner-city areas, is 
then corrupting the inner-city, and the violence related to the 
conflicts between the gangs spreads to the poor areas because 
they want to sell to the more affluent. And because the gang 
violence often is not in the suburban area, they do not feel 
responsible for it. But it is their usage that is causing the 
gang violence, in many cases, in the urban centers, because 
they are fighting over their market. They come down and they 
shop down in those areas, so the people who live there get the 
street fighting. The people in the suburbs want to act like 
nothing is happening there because their kids are going and 
getting it in another place. Thanks.
    Mr. Mica. Thank you, Mr. Souder.
    One of the things that I am starting to pick up as we go 
across the country is that we have had problems with cocaine 
and crack, heroin and other substances that have come in, 
marijuana, from abroad. And we are now, I think, on the verge 
of a national meth and designer drug epidemic, which has taken 
on a new dimension. One of you testified that you jumped from 
60 meth labs to 300, was it, in this area?
    Mr. Seib. We are expecting well over 1,000 labs in Oklahoma 
this year.
    Mr. Mica. Over 1,000 in Oklahoma?
    Mr. Seib. Over 1,000 labs.
    Mr. Mica. My God.
    Mr. Seib. In Oklahoma. Now that is State and local labs.
    Mr. Mica. Right.
    Mr. Seib. That is DEA-participated labs.
    Mr. Mica. So I think we are on the verge, and seeing the 
statistics, in California it was just astronomical. We had 
testimony of parents abandoning their children by the hundreds 
for this stuff, and also messing their brains up so badly that, 
in one case where they tried to get them back, only a handful 
would even take their kids back or were capable of taking their 
kids back after their minds are basically destroyed by this 
stuff.
    From our national perspective, you know, we can fight the 
war on drugs, things coming into the border, stopping them 
before they get to the border. Now we have got a new domestic 
threat. Maybe in closing, any ideas for us to take back as to 
how to deal with this, Mr. Pappas?
    Mr. Pappas. I would like to see more drug testing done in 
the schools.
    Mr. Mica. The program that we just heard in New Orleans is 
very effective. I mean, this was done first in a private school 
and they are going now to public school. The courts have ruled, 
I guess, that in athletic and extra-curricular activities, it 
is legal. I do not know if it has really been pressed, the 
constitutionality of it beyond that. But in the New Orleans 
Parish that we held a hearing last week, incredible results, 
and the kids seem to like it. Of course, the parents and school 
like it and it almost dropped to no incidence of drug abuse, 
and it gave everybody cover, particularly for the young people, 
who are so victimized by peer pressure, you know, try it, do 
not be out of step. That it almost eliminated that.
    So you think that drug testing has potential?
    Mr. Pappas. It would be a good deterrent, I would think.
    Mr. Mica. Mr. Seib, anything else?
    Mr. Seib. I think we need more public awareness of what is 
going on. You mentioned earlier about the ONDCP ads, something 
of $1.2 billion or something. I do not disagree with the 
program, but like the Assistant Chief here, I can only recall 
seeing one TV commercial and I do not remember seeing any 
billboards in the Dallas metroplex. I drive every day for 25, 
30 minutes to work. I do not recall seeing the billboards.
    Mr. Sessions. Let me add in here, Mr. Chairman.
    Mr. Mica. Mr. Sessions.
    Mr. Sessions. This gentleman drives around Dallas a lot. We 
see the money that this administration has put in for the new 
dollar coins, but we do not see an emphasis on the reduction of 
drugs.
    Mr. Mica. Right, I just saw a full-page ad not long ago.
    Mr. Sessions. It is incredible to see how this 
administration has a blind eye. The last DEA administrator was 
not even in the room when his objectives and budget were laid 
out by the Clinton administration. The failure, I believe, of 
Janet Reno and the President in this endeavor can be seen even 
today on our streets. There is not even anything on our 
billboards, except of a new dollar coin would be coming out. 
This tells you about the administration we have in Washington, 
DC that does not understand what the message is about.
    I apologize for interrupting, but that is a personal 
observation.
    Mr. Mica. Mr. Westphal.
    Mr. Westphal. Well, obviously in our country, the family 
unit is busting at the seams and going all to pieces. And I 
think that, based on our experience here, just how minute it 
may be in comparison to the rest of the country, I feel like 
that probably for the long haul, we need to start getting with 
kids that are a lot younger than just the fifth grade. We 
probably need to start early on, educate them. It is not 
uncommon at the fifth grade level for our LETS officers to be 
approached by a student that they have taught, in fact, in an 
open classroom and says, well, my mommy smokes marijuana, or my 
father uses cocaine, what can I do? And of course, that puts 
the officer and the teacher and everyone in a precarious 
position. And the answer there is not to just go kick their 
door in and arrest them, but we have been faced with that.
    So obviously, for the long haul, I think that we need to 
get with the kids that are a lot younger than just the fifth 
grade and start earlier.
    Mr. Mica. Well, I would like to thank each of our witnesses 
in this panel for their testimony and for their insight and 
suggestions. We appreciate your participation this morning, and 
we have no further questions at this time. So I will excuse 
this panel. Thank you.
    I will call the second panel this morning. The second panel 
this morning consists of four witnesses. They are Karen Ramos 
who is the principal at Bryan Adams High School; George 
Williams, trustee for District IV, the Dallas Board of 
Education; Mr. Justin Bowen, and he is a student; Dr. John D. 
Horn, superintendent of the Mesquite Independent School 
District. Those are our four witnesses.
    And again, let me inform our witnesses this is an 
investigations and oversight subcommittee of the U.S. House of 
Representatives. We do swear in all of our witnesses, which I 
will do in just a moment.
    If you have lengthy statements or information, background 
which you would like to be made part of the record, upon 
request through the Chair, that will be granted.
    With those comments, I would like to swear you in. If you 
would please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. Thank you. The record will reflect that the 
witnesses answered in the affirmative. And I am pleased to 
recognize at this time Karen Ramos, who is the principal at 
Bryan Adams High School. Welcome, ma'am, and you are 
recognized.

STATEMENTS OF KAREN RAMOS, PRINCIPAL, BRYAN ADAMS HIGH SCHOOL; 
    GEORGE WILLIAMS, TRUSTEE, DISTRICT IV, DALLAS BOARD OF 
    EDUCATION; JUSTIN BOWEN, STUDENT; AND DR. JOHN D. HORN, 
      SUPERINTENDENT, MESQUITE INDEPENDENT SCHOOL DISTRICT

    Ms. Ramos. Thank you. My name is Karen Ramos, and I am the 
Principal at Bryan Adams High School. I have been in education 
for 22 years as a teacher and an administrator. I certainly 
appreciate this opportunity to speak with you about drugs in 
schools.
    Whenever I speak with parents or students, I remind them 
that school is a picture of our society. Drugs are in all parts 
of society, therefore, they are in schools. No school is immune 
to drugs. Perhaps the drug of choice is different, depending on 
the income of the neighborhood, but drugs are everywhere.
    There is research to show that teenagers that smoke are 
more susceptible to drug use later on. As principal of a high 
school, I am shocked to see the number of students that smoke 
on the way to school in their cars, at the mall and in the 
community. The word about the dangers of tobacco has not 
reached the masses of teenagers in a believable way.
    Now to make this personal, let me tell you a little bit 
about Bryan Adams High School. It is a school of 2,200, 65 
percent of our students receive free and reduced lunch. Many 
come from a single-parent family. We have a Dallas police 
officer on campus, a uniformed security personnel and a 
resource specialist. We have 138 teachers. In our high school, 
we have had drug offenses that have included tobacco use, 
alcohol and marijuana. We have also found drug paraphernalia 
that has been found on the outskirts, hidden under bushes and 
things like that around our campus. Students caught with these 
items face punishments that include sometimes a police-issued 
ticket, perhaps arrest, off-campus alternative placement and 
parent conferences. But certainly more needs to be done.
    We have had a program in our district called DFYIT. DFYIT 
is financed through title moneys. Students signed a drug-free 
promise and took a random drug test. As a result, students 
received discounts from the community for fast food, senior 
ring discounts, yearbooks, etc. Sadly, our district has had to 
cut this down due to lack of personnel. But positive programs 
like this one, and LETS for elementary students certainly need 
to be continued. Students really do want the truth about drugs 
and alcohol presented in non-condescending way.
    What other behaviors can be linked to drug and alcohol 
abuse? Certainly skipping school, truancy, failing grades are 
attached to this lifestyle. Violent behaviors can also be 
linked to these students, and passive, almost non-functional 
students that do not participate in the world around them is 
contributing to this lifestyle. My recommendations to this 
panel would include continued funding of drug education at all 
levels, K through 12. Decrease the size of schools. Schools 
should not be large institutions. Incentives for students to 
participate in random drug testing, perhaps tied to the 
driver's license or reduced car insurance fees. Make a required 
length of stay for students remanded to alternative schools, 
longer than 6 weeks. Six weeks does not even begin to scratch 
the surface for an addict. Stiff punishments for people 
trafficking marijuana, drugs, and participating in gang 
violence. Incentives for companies to interact with schools 
through tutoring and mentoring. It is important to save our 
resources.
    Thank you so much for this opportunity to speak with you.
    [The prepared statement of Ms. Ramos follows:]

    [GRAPHIC] [TIFF OMITTED] T1691.024
    
    [GRAPHIC] [TIFF OMITTED] T1691.025
    
    Mr. Mica. Thank you for your testimony this morning. And we 
will now hear from George Williams, who is a Trustee with 
District IV of Dallas's Board of Education. You are recognized, 
sir.
    Mr. Williams. Thank you, Mr. Chairman, members of the 
committee. I appreciate you inviting a representative from the 
Dallas School Board to speak to you this morning.
    The Dallas School District has a zero drug policy. I serve 
on the community relations board for the Federal prison in 
Seagoville, and in that Federal prison, 70 percent of our 
inmates are drug-related inmates. So when you look at our 
society and when you look at a Federal prison in our community, 
and seeing how prevalent drugs are, one of the solutions that I 
feel is teaching our young people about drugs.
    The Dallas Independent School District receives about $1.7 
million in Title IV money for drug preventative programs. In 
some documents that I have given you--and I have given some new 
ones to you--that show the programs that we have implemented 
this year, with some new administration. We have really tried 
to accelerate aggressively our drug preventative programs. Our 
drug preventative programs and educational programs incorporate 
all students from the preschool level to the 12th grade.
    Our comprehensive programs and educational strategies are 
based on four principles of proven effectiveness. First we have 
a needs assessment. Second, measurable goals and objectives. 
Third, research-based programs and fourth, evaluation.
    When you get our documents--and I am not sure if you got 
the latest one that I am giving you, of the different programs 
that we have, but one of the things that you will find in the 
1999 and 2000 year, you will see, on an elementary, middle 
school and high school level, the alcoholic beverage that 
students have been involved with, you will see that marijuana 
and other controlled substances are the highest level of 
problems that we have. You will see the glue and aerosol paint 
and cigarettes. We have got three recommendations that we would 
like to make to you, and you have that in our written 
testimony.
    One of the documents I have given you is our Title IV 
budget category in 1999 and 2000 to show that we have 15 
salaried personnel, as well as consultants, that are involved 
in teaching our kids about drugs. You will see our 2000-2001 
proposed budget. And you will see that, on instructional 
supplies, we spent about 800,000 in the year 1999 and 2000. We 
are going to ask to increase that by a half million dollars in 
the 2000-2001 budget.
    There is a couple of pages there that you will be able to 
go through and see where we have implemented our taxpayer 
dollars into those programs. We not only utilize our Federal 
Title IV, but we have State as well as local community 
involvement in our drug programs. I chair the audit committee, 
and one of the things that we do is we monitor the programs. 
And so I have given you some statistical data for you to be 
able to take back and analyze where the tax dollars are being 
spent.
    Thank you very much.
    [The prepared statement of Mr. Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T1691.026
    
    [GRAPHIC] [TIFF OMITTED] T1691.027
    
    Mr. Mica. Thank you for your testimony. And we will now 
hear from Mr. Justin Bowen. And I think he is a recent graduate 
of Seagoville High School. You are recognized, sir. Welcome.
    Mr. Sessions. Mr. Chairman?
    Mr. Mica. Yes, Mr. Sessions.
    Mr. Sessions. Just for one moment.
    This young man who is before us, and he may end up saying 
this to us, I believe, was the president of the student body 
presidents of all of the DISD, meaning he was the president of 
the presidents organization that represented all of DISD 
schools. He is a young man who further has been my nominee to 
the U.S. Military Academy and will be attending West Point this 
summer for a full scholarship representative of the 5th 
District of Texas. And I want you to know that he is one of the 
most outstanding young leaders that we have in Dallas.
    And so I would like for this committee to recognize that 
this young man is not only an outstanding student, a leader in 
his ROTC, a leader in his church, but also a leader among his 
peers. And so he comes as a great representative of our best 
students.
    Mr. Mica. Thank you.
    Mr. Sessions. I apologize for the interruption.
    Mr. Mica. Thank you for that introduction.
    Mr. Souder. He is clearly sending you to the Military 
Academy because now you have to serve in the military and 
cannot run against him. [Laughter.]
    Mr. Sessions. I tell you what----
    Mr. Souder. He is getting ready for your seat, Mr. 
Sessions.
    Mr. Sessions. I tell you what, if we are not preparing the 
best to run for Congress or to be school board president, or to 
be a principal, then we are making a mistake. Mr. Bowen, I have 
the greatest of confidence in you, and if you decide at some 
point to get into politics, I will be your biggest supporter.
    Mr. Bowen. Thank you very much, sir.
    Mr. Mica. With those comments, Mr. Bowen, you are 
recognized.
    Mr. Bowen. I would like to thank the subcommittee for, 
first of all, allowing me to speak on behalf of the students, 
because many times the decisions are made and the voices of the 
students are not heard. And I think that is one of the most 
important things.
    My first remark would be that it is time for America to 
come together on our problem and to stop placing the blame on 
generation me or Generation X, or whoever it may be, because 
right now, as we look at the problem, it is not a generation 
problem, it is America's problem. And I think that is the most 
important thing that can come out of here.
    As I look out, usually I have many kids or many teenagers 
that come and ask me for advice, whether it is on drugs or 
anything like this, and the truth is that they do this because 
they are scared if they go to someone over here, that they 
might report it, or anything like that. And the truth is that 
they are really crying out for help. They are crying out silent 
cries.
    And it is not only the users, but it is also the family 
members of the users. I cannot sit here and tell you, you know, 
how to solve it because I do not know. And I cannot tell you 
where it comes from, because I do not know, because my mom 
raised me and I have a brother who was into drugs. I have not 
ever tried drugs. And so I do not know where it comes from or 
how it comes about, but I know that it has affected my family 
directly, for the fact that my cousin and my brother got 
heavily involved in drugs. And I never did. But I guess seeing 
the effects on them kind of reflected back to me.
    And so just to point out that it does not only affect the 
users, but it also affects the family members of the users. And 
the plague, basically the drugs, they are killing our families. 
And when I look at it, I know that they are hurting our schools 
and I know they are hurting our communities. But when I see the 
approach to solving the problem, I think that the first step we 
need to do is to save our families. Because I think when we 
save our families, then we can save our schools. And when we 
save our schools, we can save our communities. And I think that 
is the approach that goes to it.
    As one of the gentlemen before me who spoke, he mentioned, 
you know, that he would approve drug testing in schools. I 
think when people look on that, they think, well, students, if 
you tell them you want to do drug testing in their school, they 
are not going to approve of it. The truth is that many of them 
are out there and they support it. And they would support any 
effort it would take to make their home life, you know, more 
safe or whatever it may be. But I think that drug testing in 
schools would help us out a lot.
    I know if I was still in high school--I am a recent 
graduate--that I would have approved of it. When the DFYIT 
program came into our school, actually my last approach to it 
was middle school, and even then we were excited about the 
program for the fact that, one, we were looking forward to Six 
Flags and discounts like that, but it gave us, you know, a way 
of initiating our drug testing and stuff like that. It 
motivated us actually to want to go take the test, and we 
actually wanted people to come in and drug test us so we could 
get discounts on stuff.
    But I think the failure came--I do not know where it came 
with DFYIT, but after the eighth grade, I was drug tested one 
time, and never again. Maybe it was budget or anything like 
that. But I think that if we continue organizations like that, 
then eventually we will save our families and save our 
students. We cannot only, I guess, send money to the schools 
because we cannot expect our teachers, as we do so often, to 
shoulder the burden. It is not only a teacher problem.
    And I know in the DISD, one of the things we have in high 
schools--or we had, I think we are getting rid of that, or they 
are, is that they had a Youth Action Center Officer. Now what 
that officer was able to do was--and maybe Ms. Ramos could tell 
you also--is if a student had a problem, that officer was 
normally an educator, used to be an educator. We could go to 
that guy and we could say, look, here is the problem. Do not 
tell me about it, you know, that I told you so-and-so is doing 
this, but will you check into it, or will you look into it? As 
opposed to going to a police officer who, if you say, look, my 
friend has drugs in his locker, you know, I mean and fear of 
arrest or anything like that.
    Many high school students, they fear the police officers in 
their own building. Not that they will get shot or anything 
like that, but that, you know, somebody will get arrested or 
something like that. And that is why they do not turn anyone 
in, that is why they do not report it. And I think that by 
getting rid of the Youth Action Center Officers, we are making 
a big mistake because we are taking educators out of our 
schools, and that is the educator I would have trusted to go to 
with my problem, and say, hey, look, here is what is happening, 
will you check into it.
    So I think we should look into more of that in our schools, 
not only putting more officers with guns strapped to their side 
in our schools, but, you know, also educators, who are former 
educators, that can take these problems into consideration and 
know exactly how to deal with students. I think we ought to 
seriously look into that.
    And just in closing, I feel that if we do not unite as a 
country then our families will die out, and then our kids will 
continue to fall into depressions, and teens will continue to 
take their own lives and the America we all once knew and 
loved, it will eventually fall. And drugs in our communities 
ruin the homes of America but drugs in our schools ruin the 
future of America. We must clean up our country, one family at 
a time, one school at a time, and eventually one community at a 
time. Only in this manner will America cleanse itself of such a 
plague.
    Thank you once again for allowing me to speak before you.
    Mr. Mica. Thank you for your testimony. And I will now 
recognize Dr. John Horn, superintendent of the Mesquite 
Independent School District. Dr. Horn, you are recognized.
    [The prepared statement of Mr. Bowen follows:]

    [GRAPHIC] [TIFF OMITTED] T1691.028
    
    Dr. Horn. Mr. Chairman, thank you, and committee members. I 
am privileged to follow such an outstanding young man here. It 
is inspiring to hear someone speak as you have just spoken.
    Having heard the prior panel, where you had assistant 
police chief of the city of Mesquite, Gary Westphal, 
essentially describe most of the programs that we have in 
place, I am not going to go over those again, and save your 
time. It is in the written testimony that we have provided.
    There is one addition to that, and that is a middle school 
program we have called a youth conference where we have 
students in the middle schools to select their leaders. And 
these leaders come to a full day of training and program 
activities. And the theory is that they go back then and work 
with the rest of the student body. And we provide training for 
them in decisionmaking and handling peer pressure, etc. That 
program has also worked very well.
    The other observation is that the partnerships that we have 
cultivated and maintained for many years have also been brought 
into play on the gang and drug use among young people. And that 
would include our city, our school district, our Chamber of 
Commerce, our churches and other organizations.
    In fact, there is a group, and I am not sure if Mr. 
Westphal defined this, but it is called the Youth Services 
Committee, which was begun some years ago. That is where they 
solicit the information from students about what they saw as 
needed to find a path out of some of the usage that was going 
on. And we have had reasonably good success, in terms of the 
gang activity. Drug usage is difficult to ascertain, I think, 
but nonetheless, the partnerships, we believe, are essential to 
any community to address the problem. That was one thing I 
would say.
    Another is that we keep looking for a silver bullet, or 
vaccination like those to get rid of smallpox or polio. It is 
not out there. It is like we can educate the child, therefore 
they know. Knowledge, as we know, children or adults, does not 
necessarily translate into changed behavior, and there is no 
such thing as a one-shot effort education. So what the 
implication of that is, is that it must be continuous, it must 
be embedded and it must be supported. We are really talking 
about decisionmaking. And we need to enable young people to 
have good decisionmaking skills.
    There are a lot of things that are occurring that--I know 
the word enabler is sort of a hot-button word sometimes, but we 
have heard testimony this morning, and I concur, that there are 
a lot of things that society and perhaps parents are doing that 
enable their offspring to engage in the use of drugs. And maybe 
the schools are doing some of that as well. But I think that it 
is important that we have a continuous program of education, 
continuous program of partnerships, and a continuous program of 
intervention kinds of things that work. And finally, a 
continuous program of support. Young people must have support, 
all along the way. And I think that would be the greatest thing 
that we can do to address the problem we have.
    Thank you.
    Mr. Mica. Thank you. And I thank each of the witnesses for 
their testimony.
    First, Principal Ramos, you have seen what we are doing at 
the Federal level, as far as attempting to assist in developing 
prevention and education programs. Given what you have seen, 
since we cannot do everything, what would be your priorities 
that you would recommend that we take back to Congress for us 
to concentrate on?
    Ms. Ramos. I am currently in the process right now of 
writing a proposal for the smaller learning grants that are 
sponsored through the Federal Government. I think that the 
large schools lend themselves to a person being not known.
    Mr. Mica. Your school is 2,000?
    Ms. Ramos. Almost 2,200, yes.
    Mr. Mica. That is a large school.
    Ms. Ramos. It is too big, correct.
    Mr. Mica. And we seem to be building them bigger and 
bigger.
    So that is one thing that you would encourage?
    Ms. Ramos. That would be the first one. And then the second 
thing, I heard your comment about the commercials, $1 million 
being spent.
    Mr. Mica. $1 billion.
    Ms. Ramos. $1 billion? I am sorry.
    Though I found those interesting and funny or provocative, 
those alone are not the kind of education that changes 
anybody's behavior, I do not think. I think that quality 
education that is not condescending to kids, that is truthful 
and informative, is good for young people no matter if they are 
in the kindergarten or in the 12th grade. But so often it is so 
heavily laden with a preach component that kids turn off. So I 
think education is important, and the program that I like that 
I have had the most success with is the DFYIT program. But 
because kids voluntarily become part of it. They get random 
tests, and also they get something immediately for it.
    Mr. Mica. So part of the DFYIT program is random drug 
testing?
    Ms. Ramos. Yes.
    Mr. Mica. Would you be supportive of mandatory drug 
testing, or at least random drug testing in public schools?
    Ms. Ramos. Yes.
    Mr. Mica. Mr. Williams.
    Mr. Williams. Same question?
    Mr. Mica. Yes.
    Mr. Williams. Yes, I would.
    Mr. Mica. And Dr. Horn.
    Dr. Horn. We have some voluntary programs now for drug 
testing for students involved in athletic programs in the 
schools.
    Mr. Mica. Right. And I think the courts have upheld those 
for extracurricular and sports activities. Do you see a 
problem?
    Dr. Horn. At the conceptual level, I would agree that some 
random testing could be beneficial. But I think you have got to 
have community support for that.
    Mr. Mica. Well, what about an opt-out program for parents 
who do not want their kids tested?
    Dr. Horn. That would be a way to satisfy probably some of 
the legal hurdles you have to get over.
    Mr. Mica. I think that is what they are going to do in New 
Orleans, now that they are shifting from the private to public, 
is allowing an opt-out.
    Mr. Bowen, you testified you thought that the testing 
offers a positive incentive?
    Mr. Bowen. I think so. I think in the past, kids maybe were 
like, you know, well, it is not that big of a deal, you know, I 
do not want to do the testing, you know, if I do not have to. 
But I think kids nowadays, as you have in D.C., they see that 
drugs are killing their friends, and they see that drugs are 
ruining their families, and I think that is why they are 
willing, you know, more than in the past, more willing to take 
the initiative. Whether they have to sacrifice, you know, 
whatever it may be, but take the initiative to get tested. So I 
think they are willing to.
    Mr. Mica. Well, I think in your testimony, did you say you 
were raised by your mom?
    Mr. Bowen. Correct, yes.
    Mr. Mica. OK. Sometimes people say that the drug problem is 
just a problem of dysfunctional or single-parent families. But 
we found that--and I alluded to some of that in my comments, it 
is striking church-going, Bible-thumping, normal nuclear 
families. This is an epidemic that is affecting everybody. The 
last thing we can do in Congress is dictate every type of 
government program from Washington that is going to be 
successful. I think that some of the things we have done to try 
to strengthen the family, Welfare-to-Work and some of the other 
incentives that we have tried to do revising some of the 
mandated programs, have helped. But we still have the problem 
of trying to get Federal dollars to programs that are most 
effective.
    Did you say that $1.7 million comes into your district, Mr. 
Williams?
    Mr. Williams. Yes, it does.
    Mr. Mica. I did not see in your testimony. You were going 
to provide us with how that money is spent?
    Mr. Williams. Yes. And I think I had 50 handouts.
    Mr. Mica. Can you just tell us, do you know how that 
breakdown is? Maybe you should change some of that. Is it for 
DARE or drug education programs?
    Mr. Williams. Let me see if I can hand that to you, a 
couple of those copies. There is quite a few, on the salaries 
we have, 15 positions at $700,000, and it gives you a list of 
the different descriptions that we have.
    Mr. Mica. Oh, I see. This addendum is not in our packet.
    Mr. Williams. No, I had them actually working on it 
yesterday, to be more complete, thorough. The information that 
we sent you, I did not have this, and since I chair the audit 
committee. I am specific on being able to have documentation as 
far as specific dollar amounts and data. And so it does give 
you some of the consultants and different Drug-Free Youth in 
Texas, independent evaluation, FYI and the different 
expenditures there. Instructional supplies, as I said, was a 
little over $800,000. We would like to increase that by half a 
million.
    You will see that the dollars, right off the bat, will 
tally more than $1.7 million. Believe it or not, we actually 
had some additional funds that were not used last year, and we 
are being aggressive with our new administration of using every 
dollar that we have.
    Mr. Mica. Have you considered like an experimental drug 
testing program, maybe with one of your problem schools?
    Mr. Williams. Well, we actually have a number of schools 
that have volunteer testing, in which we have another list that 
we certainly can provide to you. Students who have volunteered 
to take the test, and one particular high school, we had 122 
students take it. 120 of them came up clean, 2 of them are on 
the statistical data here with drug problems. But we had, I 
think, about 27 schools who have voluntarily taken the drug 
testing students that have signed up.
    Mr. Mica. How many students does this district serve?
    Mr. Williams. We have approximately 163,000 students.
    Mr. Mica. 163,000.
    Mr. Williams. Approximately 9,000 teachers, approximately 
18,000 total employees.
    Mr. Mica. And what do you think about the recommendation of 
Ms. Ramos, about smaller schools?
    Mr. Williams. Well, we certainly agree that, the smaller 
the school--I mean, our elementary schools, you would love to 
have an elementary school at 500 and 600. We have elementary 
schools at 800. I mean, we are overcrowded. But the smaller 
schools, certainly with smaller class sizes, would give us a 
better chance of educating our kids. I do not know if we better 
tell him how many kids we have in a class, but we certainly 
have too many in a class. We need to get the student ratio of 
our teachers down.
    But I would like to comment on the advertising budget.
    Mr. Mica. OK.
    Mr. Williams. When I was in California, I saw newsclip ads 
about kids staying in school and about drug prevention. I 
thought it was very, very positive to go along with our 
educational programs, as a reminder. It is just like when you 
see an ad for a restaurant, you are going down the highway, you 
are not thinking about eating Fajitas or steaks, or anything, 
you see that little reminder that there is a restaurant. Let us 
go have seafood.
    So I think this little advertising campaign, truly, if it 
is implemented with our media, such as Smokey the Bear, well, 
all of a sudden we started changing our fire, when we were 
kids. Same thing with some of the things in Dallas, we had 
deal, it is 10 p.m., do you know where your kids are? Well, 
when that plays on television every night at 10 p.m., you 
think, gosh, where is my teenage daughter or son?
    I think with staying in school, with learning through 
continued education and drug prevention, I truly believe that 
if we would get all of our media to buy into that, even in the 
newspaper media, as you just commented about a full-page ad 
about the new coins, that if we had something, have you talked 
to your kids about drugs today? I was at one of our high 
schools. In some cases, we have single parents. In some cases, 
we do not have a parent at all. I sat in one of the classes, 
and the teacher said it used to be that kids did not have a dad 
at home. Well, in some cases they do not have a dad or mom 
because they are in jail because of drugs, was her comment. So 
we have a grandparent or a friend, or either the kid has 
dropped out of school.
    We have educational programs. It does not make any 
difference how much money you have. You can have the designer 
drug, if you are in Plano. But in Dallas Independent School 
District, we have 52 percent of Hispanic kids, 37 percent 
African-American; 90 percent are minority kids. They may not 
have the money that the kids have in Plano or in Mesquite, some 
of the suburban districts, but they certainly can get the other 
drugs that are low-dollar drugs.
    Drugs has to be continued to have the funding to be able to 
train and teach our young kids. We have started off with a new 
program where we, I think, are getting $300,000 for our middle 
school program. We need to start at the pre-K and the first and 
second and third grade.
    So whether we come up with a national character, as we did 
with Smokey the Bear, in drug prevention, whatever kind of 
character that we have, but our kids have to know what it does 
to families and what it does for our kids. Our mission 
statement is to graduate every child, every child to be a 
productive citizen, highly trained and skilled to be a 
productive citizen. They cannot be a productive citizen if they 
are tied to the drugs.
    Mr. Mica. Mr. Sessions.
    Mr. Sessions. Thank you, Mr. Chairman. I thought I was 
going to ask a question and I am not sure that the numbers lead 
that way, but I will ask it anyway.
    Mr. Bowen, how destructive or how pervasive are drugs to an 
average person that goes to Seagoville High School? Do they see 
them, football activities, after-school dances, can you see the 
kids that are on drugs, and do you know them and how prevalent 
is it? And alcohol.
    Mr. Bowen. I think, well, obviously alcohol is a major 
problem. And that is noticed from parties and everything of 
that nature.
    I guess I was one of the lucky ones for the fact that I 
took such an approach to so many things that I was so involved 
in things that I was not offered drugs too often. They were 
kind of, I guess, leery of offering them to me, and I was just 
offered it for the first time last week. And in my written 
testimony, I think, which is out there, I said I was insulted 
by that because of the guy. But you know who the users are.
    Mr. Sessions. Did you feel like you would want to turn him 
in to the police department?
    Mr. Bowen. Would I?
    Well, that was Cancun, when he offered it to me. And so 
that is one of those things. But if he was to do it here, yeah, 
I would. I would not hesitate. And like I said, if I was in 
school and he offered it to me, I would not hesitate to go to 
that officer, that Youth Action Center Officer and say, hey, 
look, you know, because I am one of those people where I 
understand, you know, that sometimes you do wrong things. But 
you do not bring it, and you do not allow it to affect everyone 
else. You just do not do that. And so you know, I would have 
turned him in. I would have.
    And in school, I mean, you know, that is what I am saying, 
many students go to a police officer, they know somebody has a 
chance of getting arrested, which that should happen if you are 
trying to sell it at school. And if you are trying to do that 
stuff, that should happen, and you need help. And so that is 
why we need, you know, officers there that we feel comfortable 
around. Somebody stated earlier that when they see police 
officers they do not feel comfortable. That is all too often. 
It happens all too often, you do not feel comfortable around 
police officers. And I do not know why, either, you know, a lot 
of them are great guys.
    Mr. Sessions. Well, they are there to protect the law.
    Mr. Bowen. Yeah. Oh, yeah.
    Mr. Sessions. Uphold the law.
    Mr. Bowen. I think at school, though, you know who the 
users are, you see them. You know who the guys are, pretty 
much, providing it. At Seagoville, I guess we are in a very 
different situation than Bryan Adams, though, because we are so 
much smaller. We have, I think close to probably 1,000, a 
little over 1,000 students at Seagoville. It seems as if the 
older you get, you assume your providers, your drug providers 
are kind of older. Our senior class is probably a whole lot 
smaller than Bryan Adams.
    We might have the problem, but it is kind of on a reduced 
rate as opposed to Bryan Adams. And really, at Seagoville, you 
probably assume maybe two or three people there are providing, 
maybe, and using drugs, you know, further out at the parties. I 
do not hear about marijuana, I mean heroin and stuff of that 
nature. You hear more about marijuana at Seagoville, and stuff 
like that. But alcohol is a major problem there, it really is, 
because I mean, you come back on Monday, and you hear about the 
people that drank alcohol on Friday. So it is a major problem.
    Mr. Sessions. Ms. Ramos, I had an opportunity to have your 
job for a day and I think I would love to next year let you 
have my job for a day, because I think I learned a lot by 
walking in your sandals. And of course, as you know, we are 
going to have one of your officers who will be on the next 
panel.
    What do we do about drugs in schools? I know we discussed 
testing. What do we really need to do? Do we need to be more 
active? Do we need to come in and do something about it, or are 
you, as an educator, working with the police department trying 
to keep it in its proper perspective and attack only the 
problem?
    Ms. Ramos. Well, I was interested in the first panel when 
the man from DEA spoke. I have never had anyone approach me 
from that agency to talk, or to work with drug education on our 
campus. I am a real proponent of education and letting people 
know so they can make good choices. I think that sort of a 
partnership, that free flow of information needs to occur.
    I also think that we do need to keep it in perspective 
because there are many students just like Mr. Bowen here that 
are making good choices, and are going to be the leaders of 
tomorrow. I think we do need a strong parent component because 
the drug of choice at Bryan Adams is alcohol followed by 
marijuana. And all too often, our parents do not understand the 
implications of being involved in alcohol and what it does 
later on, perhaps to get you involved in other things.
    And I am concerned about the lack of parenting and the way 
that parents--I am a parent also, and I work also--have 
sometimes an attitude, you have him for 8 hours, you know, you 
deal with them and I will get him back when he comes back to my 
house. I do not know how you bridge that, I do not know how you 
make parents your allies, because as the gentleman before me 
spoke, in the earlier panel, you have very positive people that 
want intervention, parents, when you tell them there is a 
problem, and then you have the parents that, ``not my kid,'' in 
denial sort of thing.
    So I think education and then a penalty. I think that kids 
want to feel safe, teachers want to feel safe, all of us want 
to feel safe. And so if a problem is uncovered, there should be 
something that we can do about it. Whether that is getting 
someone in treatment or getting parents and family into 
counseling, but there should be something that those of us not 
involved can look at and say, oh, there was a problem and they 
are attempting to find a solution. Because all too often, the 
solutions that we have are so quick, you know, go here for 6 
weeks and you will come back and you will not have that drug 
problem anymore. And we know that that does not happen. That 
takes sometimes years to get out of the cycle of alcohol or 
drug abuse.
    So I think whatever remedy there is, it needs to be long-
term. And I think, as Mr. Williams spoke, it needs to begin 
early, very early in a kid's life, because kids see this on TV, 
they see it in the movies, they hear sports people talk about 
what they have done, and we need to begin to explain it, even 
though it might not be in our house, because they are being 
bombarded with it, even as we might be just letting them watch 
the Disney Channel. But they are hearing, they are seeing it, 
and they need to have as much information to make good 
decisions.
    Mr. Sessions. I would just like to make a comment, and I am 
not going to ask a question. But I want you to know, Dr. Horn, 
that of all the people that I have ever known in education, 
including this panel that is with you and some that may follow, 
there is not one person who I have greater respect for, and who 
I believe is a fine administrator and a person who has the 
finest capability of any person I have ever met in education. 
And I want to thank you for being here today, and believe that 
your wisdom and judgment is important to MISD, and at any time 
that this subcommittee, the members who are here and also that 
we work with in Washington, we are very open to hearing from 
you, and any of you, about the ways in which we can do a better 
job.
    With that, I yield my time, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Sessions. I now recognize Mr. 
Souder.
    Mr. Souder. It is DFYIT, as opposed to defiance?
    Ms. Ramos. Yes.
    Mr. Souder. DFYIT. How many people participate in that 
roughly, do you have any idea?
    Ms. Ramos. Well, in our school, we had over----
    Mr. Mica. I do not know if they can hear you, Mr. Souder.
    Mr. Souder. Everybody from Texas could understand what you 
were saying on DFYIT. I was the Hoosier rural.
    Mr. Mica. Does it not stand for something?
    Ms. Ramos. Yes. Drug Free Youth in Texas.
    Mr. Souder. You started to tell me, in your school.
    Ms. Ramos. In our school, we had over 200 this year, 
however they became disillusioned because some of the things 
that they were promised did not come to fruition.
    Mr. Souder. So 200 of the----
    Ms. Ramos. 200 of the 2,200 students were involved in it.
    Mr. Souder. And the things did not come through because of 
the number of people?
    Ms. Ramos. No, no. Things did not come true because of some 
funding issues that I am not privy to.
    Mr. Souder. Do you know, Mr. Williams, was this in Dallas?
    Mr. Williams. It was in our district, but I honestly do not 
know anything about that particular program.
    Mr. Souder. So that was not--any of the funding for that 
did not come through Drug Free Schools money?
    Ms. Ramos. Yes.
    Mr. Souder. Did it come from drug-free?
    Mr. Mica. We are not going to be able to do that.
    Mr. Souder. Oh, OK. I am not going to do that. OK. I am 
sorry.
    Mr. Mica. We will not ask that.
    Mr. Souder. The reason I wondered, those two questions are 
the difficult questions. I was a staffer before I was a Member 
of Congress, and one of the things I worked with with Senator 
Coats was, in 1989, in fact, one of the two schools that 
started in Indiana on athletes on drug testing, and went 
through a circuit court and was upheld if you tested for 
voluntary activity, there was a school in Texas that was 
pioneering the next--and I cannot remember where because I am 
going to be 50 this summer and your brain cells start dying at 
28 which means at 50 you are really in trouble--but in Texas 
they were drug testing all the students, and there was a 
question, was there probable cause, and the courts are still 
working through, district by district, of what you can do.
    You can get around that with voluntary incentives, which is 
better than nothing, but not necessarily getting the most at-
risk kids. But we attached a bill that allows any Drug Free 
Schools money can be used by a system for drug testing. The 
problem is, we are still working through, depending by 
district, where the courts are, where the parent support groups 
are. It has to be truly random, you have to have alternative 
tests. But it is clearly an accountability function.
    In my district, we now have two high schools that are doing 
uniform random testing, and another high school where I met 
with the seniors, the superintendent of that district and the 
principal were in the room, they had slipped in in the back, 
and listened to the exchange we had. It was real interesting, 
the student body president, the senior class president, the 
student council vice president were all against it. And then 
some kids started speaking up for the drug testing.
    After we were done, the principal and superintendent 
decided to implement drug testing, because the kids who spoke 
up for it were all kids who either had alcohol or marijuana 
problems or were suspected of those problems, and several of 
them that had been caught in athletic or in voluntary programs 
and said, our lives would not have turned around without the 
drug testing. The other activists and some of the kids who were 
making the arguments were, oh, there is a rights question, it 
could embarrass people, it is a waste of time, what if I had a 
McDonald's sandwich and the sesame seed bun set me off? You 
know, this type of question, way back on old type of tests, as 
opposed to the current.
    But the fact is the kids who actually had their lives 
changed knew that--in fact, some of them, a couple of them who 
had not been caught and who were just suspect said, it would be 
easier to tell the other kids that we could not participate in 
an activity and the peer pressure because we would just tell 
them, well, you know, I could get caught. And it is not a 
solution in the sense of getting to the core problems, but it 
is a way to check it and is allowable use of Drug Free Schools 
funds. It is, when combined in particular with incentives to 
make it a positive, even if it is just a reward system, it is 
clearly where we are headed in a lot of programs.
    I am right now one of the arch villains in this country, 
with every, bluntly put, whiney college newspaper editor in the 
country because we put a new standard on student loans in this 
country that was not enforced aggressively this year, but next 
year it is going to be there, and schools are going to have an 
obligation. And in the higher-ed amendments we just passed, we 
are going to have an information package that has to get to 
every student. If you are busted when you are in college, you 
now lose your student loan for 1 year. I put in a clause that 
says, if you go to treatment or if you test clean twice, you 
can get it back before the year is up, because our goal is not 
to kick kids out of college, our goal is to get them clean. And 
that we are either serious about this stuff or we are not 
serious about it. And if you get busted twice, you are out for 
2 years, third time you are out. If you are a dealer, it is 
once.
    Now kids need to know, if they are headed in, that we had a 
big conflict whether high school previous convictions were 
going to deprive you of a student loan coming in. The 
Department of Education interpreted it that way, but that was 
not the way I intended it in the original amendment and we are 
clarifying that in the higher-ed. It is only once you receive, 
once you fill out that high school application, and once you 
say, we are getting a government subsidized loan. Now that 
summer period beforehand, you are going to be held accountable. 
That is another tool with which to educate kids. There is a 
risk and an accountability with this. Ultimately, we have to 
have more prevention.
    But I really like the positive--I like the idea of tying it 
to car insurance. If our car insurance companies would do that, 
that is clearly another area to move.
    I am curious, in the Dallas school system, you said you had 
89 percent minority?
    Mr. Williams. Approximately 90, yes.
    Mr. Souder. Do you have, even if you are part of the city, 
you can have separate school districts? Is that part of the--
how does that work?
    Mr. Williams. Well, Dallas and the school district is made 
up of part of the Dallas County. Justin happens to live in 
Seagoville, it has its own police department, fire department, 
it is a separate city, but it is part of the Dallas Independent 
School District. So we make up a wide variety of different 
cities that make up the Dallas Independent School District.
    But we have nine different districts and I represent 
District IV, approximately 100,000 registered voters, it makes 
up a certain segment of our community. In my district, I have 
approximately 27 schools, 3 high schools, 3 middle schools. But 
our district, in some areas, may not be as strong with minority 
students, where we may have some districts that are totally 
minority.
    But to answer your question, we have 90 percent of minority 
students.
    Mr. Souder. Dr. Horn, you may have an opinion on this, too, 
as well as Mr. Williams, that we are wrestling in the Education 
Committee. One of the first questions people say, you have too 
many people in administration and not enough in the classroom. 
That every time we go through and have one of these hearings, 
we hear, we need this resource specialist, we need this special 
program, we have this government reporting--any time you get 
funds, you have more reporting. That is tension No. 1.
    And one of the fundamental questions that I wrestle with 
all the time, is the most effective anti-drug program an anti-
drug program, or is the most effective anti-drug program 
pouring this money into getting kids' skill levels up in 
education and then holding them accountable through drug 
testing or other things? Because if we give them the skills--I 
know that is a question you face every day in every funding 
decision. But clearly, every time we devise another government 
program that diverts resources from the fundamental part of 
education to provide support, it is clear, if a kid is getting 
abused at home, if his parents are on drugs, are not helping 
him get there, or if he is on drugs or alcohol, trying to teach 
him English is pretty difficult.
    But this is a tough chicken/egg question. I just appreciate 
your comments.
    Dr. Horn. Well, a big part of what we are dealing with here 
is relationships. And that is why I am going to come back to 
saying that the family and individual, it is about 
decisionmaking and the strength of those relationships and 
support all along the way. There is no vaccination.
    In terms of what we can do in schools, I think it is going 
to take a community-wide approach, and I guess one of the 
questions is, what is the role of the Federal Government in 
this. And I am not prepared to answer. But I do think that, the 
research is one area, and I think that incentive kinds of 
things is another. And we do not get that much money for the 
Drug Free Schools Act, it comes through our regional education 
service center. There are 20 of those in the State, and we do a 
cooperative with them. Probably less than $200,000.
    So with respect to the bureaucracy that is necessary to 
administering the program, I think that will always be a 
problem. But I think if you listen to Mr. Bowen here, he is 
saying a lot of kids are crying out. And that is true. And 
there is not someone to go to. And if there is not the family, 
which we would like it to be, then there has got to be some 
other source. So typically the safest place for kids is at 
school, in terms of the emotional challenges they face, 
sometimes as well as physical safety.
    So I am not sure what form the support should take, but in 
some ways, you think about the American family being in crisis, 
and whether it can heal itself may be a big question. There may 
be some ways we can help American families to be more 
effective. And I do not think from an enforcement perspective, 
but just from support. If you have a family that is in crisis 
and one of their children is on drugs or in trouble with the 
law, where does that family turn to? If they happen not to be 
connected to a church, where do they go to? And you heard Mr. 
Bowen talk about the Youth Action Center at the school. So 
there may be some opportunities there to provide support for 
the family that is in crisis.
    A final comment on the ratio of administrators and 
teachers, you just need to look at the research about that from 
the various sources that you have. And there has not been a 
proliferation of administrators, typically, in public schools 
in America. That is an absolute myth. You have support and 
facilitation people that are required to do the things that 
need to be done. Special education programs in particular are 
where you have the greatest amount of resources allocated from 
the Federal Government, and the greatest amount of resources 
per student allocated in the public schools.
    What we know about teaching and learning is that you will 
not have a sustained high performance school without good 
administrative leadership. You cannot work around the principal 
to get high performance, you have to work through, and with. So 
there is a place for the school leadership at the district 
level and the school leadership at the campus level. And then 
the services to schools that are provided by the various other 
administrative personnel. So it is a matter of degree, it is 
not a matter of one against the other.
    Mr. Williams. I will tell you that, with Dr. Horn, and a 
lot of our suburban school districts, the ratio for 
administration in the campus level is on target where it needs 
to be. Our new superintendent just reduced our administrative 
staff by 16 percent a couple of months ago, because in some of 
your urban large school districts, you will find that we have 
had too many administration personnel and not enough at the 
campus level.
    But in saying that, I will address about our schools. We 
not only need to teach our kids about drugs, we have to teach 
our teachers. We have to have training so that our teachers 
understand to recognize--because I am going to tell you, I 
would not know what the smell of marijuana is, I would not know 
what the majority of these different drugs. I have gone through 
a police academy seminar in which they have had a drug expert 
come in, and I learned an awful lot. But I am going to tell 
you, unless our teachers understand what is out there, to be 
able to recognize it, and to be able to know that they need to 
help a child, then we have to have training at the 
administrative level, and have to have funding to be able to 
make that training happen.
    We just authorized 95,000 this last week for some 
individuals to help us with gang-related teaching for our 
teachers. There is new signs, there is new gangs, there is new 
things out there that we do not know what to recognize So if we 
cannot stay up with what is going on in the drug world, as well 
as the gang world, our teachers have to be trained to recognize 
what is going on.
    So we need to be able to make sure that there is funding 
available so that the different districts--and as you heard, we 
have different challenges for the suburban versus the urban 
school district, different challenges that we all have to face. 
And so we need to be able to have diversity of how we can be 
able to utilize those, and not just one set rule that, hey, 
everybody is going to play by the same field. Here is the 
funds, you have to do this. There has to be diversity of those 
expenditures.
    Mr. Souder. One thing I would just like to add on drug 
testing and that, in the business area, in the Small Business 
Committee, we passed--a lot of it came through my subcommittee 
that allows businesses to tap into a resource fund of how to 
set up drug testing. But one thing the law is pretty clear on, 
do not try to do something to your employees if you do not test 
yourself. And that it is something for school districts to 
consider as well, that if the board, the superintendent's 
office, the principals and the teachers were taking the tests, 
then the students would not feel it is just a finger-pointing. 
It starts with Congress.
    Quite frankly, we have got a fair number of less than 
straight-forward Members of Congress who want to test everybody 
else and do not test themselves. We have put testing in our 
office. We have been having a big internal battle as to whether 
we can pay for it with taxpayer funds. Anybody in my office 
right now who gets drug tested, I have to pay for out of my 
personal pocket. I cannot use campaign funds, I cannot use 
private donations and we cannot use office donations, because 
some Members of Congress do not want to allow us to drug test 
because they are worried about it. And that really upsets me. 
And that is why a lot of kids are cynical about our process. If 
we, as adults, provide the same criteria to ourselves that we 
ask of the kids, we may see a different attitude, too.
    Mr. Mica. I would like to thank each of the witnesses in 
this panel for their testimony, also providing us with their 
experience and viewpoint and recommendations. We will try to 
utilize some of what we have learned from this and the previous 
panel, as we return to Congress very shortly.
    There being no further questions for this panel, I will 
excuse you at this time.
    I will call our third and final panel. The third panel 
today consists of three individuals: Dana Mitchell, who is the 
director of the Mesquite Youth Intervention Program; Matt 
Manning who is with the Fellowship of Christian Athletes, and 
Dora Flowers who is a security officer in Bryan Adams High 
School. I would like to welcome all three of these witnesses.
    And again, this is an investigations and oversights 
subcommittee of the U.S. House of Representatives, and we do 
swear in our witnesses, which I will do in a moment. If you 
have lengthy statements or additional information you would 
like to be part of the record, upon request to the Chair, that 
will be granted. If you want to just stay standing, please 
raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. And this was answered in the affirmative. And 
pleased at this time to recognize first Dana Mitchell, who is 
the Director of the Mesquite Youth Intervention Program. 
Welcome, and you are recognized.

     STATEMENTS OF DANA MITCHELL, DIRECTOR, MESQUITE YOUTH 
  INTERVENTION PROGRAM; MATT MANNING, FELLOWSHIP OF CHRISTIAN 
ATHLETES; AND DORA FLOWERS, SECURITY OFFICER, BRYAN ADAMS HIGH 
                             SCHOOL

    Ms. Mitchell. Thank you for having me today.
    Mr. Mica.We may need to pull the mic over, if you could do 
that. Thank you.
    Ms. Mitchell. Thank you. Mesquite Youth Services is a 
division of the city of Mesquite Parks and Recreation 
Department. The division was established in 1991 as a result of 
the Youth Services Steering Committee's efforts to address some 
of the troubling trends involving youth in the community.
    The Youth Services Steering Committee, now known as 
Mesquite Youth Services, Inc., was responsible for designing a 
community-based response to the critical needs of youth. The 
committee determined early on that the best use of the energies 
and resources was to focus on prevention rather than 
rehabilitation of gangs.
    Youth Services takes a multi-faceted approach to 
prevention. We operate from the stance that any youth can 
become at risk, given the right circumstances. I would like to 
share with you a brief description of some of the programs that 
we provide that are making a difference in the lives of 
children.
    One such program is Youth Options. Youth Options is a 
violence prevention education program for fourth-grade 
students. This program has been very effective in teaching 
youth alternatives to violence when dealing with conflicts. The 
program explores violence in music, television and the media. 
One student wrote, ``Helped my self esteem. Thoughts of running 
away but didn't. Thank you.''
    We also provide a gang prevention program for sixth grade 
students. We provide information on the definition of gangs, 
peer pressure and gang involvement, gang activity, where to go 
for help, and the end results, which we know are death or 
prison.
    We have an after-school program provided at a centrally 
located community center here in Mesquite. The goal of the 
program is to provide support to all young people, age 11 to 
14, in a way that promotes a healthy lifestyle, exposes youth 
to various cultural and recreational activities, and provides 
alternatives to gangs, drugs and violence.
    Youth Services works with community agencies to provide 
support groups, volunteers and in-kind donations. We have been 
successful in our programming efforts but lack the funding to 
adequately provide supervision that can address the level of 
risky behaviors these youth are exposed to.
    For example, there was a young man in the program that was 
very defiant, failing in school and had a lot of contact with 
the police because of complaints. This young man had minimal 
supervision or support from his mother. On one occasion, a 
relative called to say that his mother had been arrested. On 
another occasion, he informed staff that he might have to drop 
out of the program because they were moving. They faced 
eviction because his mother was suspected of selling drugs out 
of their home.
    A program that has been successful is a youth conference 
during National Red Ribbon Week. It is our anti-drug youth 
conference for middle school students that is designed to help 
them make positive life choices. As students comment, is 
confirmed that we have reached our goal. ``I learned things 
that we need in life, not just in the next grade.'' We could 
not accomplish our goal without community support.
    Mesquite Youth Services, Inc. is a great avenue for 
everyone to come to the table with ideas, expertise and 
resources.
    With all the support mentioned above and the many programs 
we offer, there remains a need for services. There are many 
families that need direct intervention and direction to 
services that can address their needs.
    I have shared with you the stories of success with our 
prevention programs, but there are many other stories of 
families in need of services. Families who have exhausted all 
their resources, families who do not know where to turn for 
help. Parents whose children suffer with mental illness and 
become so aggressive that they are afraid of them. Parents who 
cannot get their children to attend school and face a fine or 
the loss of their job if they do not get help soon, and single 
parents who are tired, frustrated and sometimes helpless in 
dealing with the day-to-day task of parenting. These are the 
stories that are unforgettable to me. The many people who need 
people to help them, to support them, to encourage them, when 
dealing with the trials they encounter in life.
    Youth Services is working to address these problems but 
need additional funds. Although funds are available through the 
Federal Government, staff is somewhat hesitant to apply because 
usually they are field-initiated grants that have an 18 to 24-
month funding cycle. It has been my experience that it takes up 
to 24 months to implement a new program, not to mention 
determining program effectiveness.
    In conclusion, Youth Services has enjoyed much success in 
its prevention efforts. Mesquite has realized a reduction in 
gang activity and criminal activity overall in the last 10 
years. Youth Services plans to continue current programming and 
continue to look at new and innovative ways to serve youth. 
Please join our efforts by supplying funds that are program 
friendly and allow growth and development.
    Thank you for listening today and caring about communities 
and schools.
    Mr. Mica. Thank you for your testimony, and we will now 
hear from Matt Manning, who is with the Fellowship of Christian 
Athletes. You are recognized, sir.
    [The prepared statement of Ms. Mitchell follows:]

    [GRAPHIC] [TIFF OMITTED] T1691.029
    
    [GRAPHIC] [TIFF OMITTED] T1691.030
    
    [GRAPHIC] [TIFF OMITTED] T1691.031
    
    [GRAPHIC] [TIFF OMITTED] T1691.032
    
    Mr. Manning. Thank you, committee. My name is Matt Manning 
and I am from Allen High School. I am the president of FCA 
there, it is Fellowship of Christian Athletes.
    I would like to start off today by thanking you for giving 
me this opportunity to speak on behalf of my generation. This 
is a tremendous honor for me to speak on something so dear to 
me. I would first like to start off by telling you a story 
about two boys that grew up together and met in the sixth 
grade.
    They are normal little boys. It was in seventh grade that 
they both started changing. They went to parties together and 
experimented with drugs. Their lives soon fell apart and out of 
control. Both experienced total chaos. One of the boys in our 
story was a Christian. He grew up in a Christian family and 
accepted Christ at an early age. He knew all of the Bible 
stories and all the words to the hymns, but he really did not 
have a relationship with Christ. They both hit rock bottom, and 
that is where one of the boys found his Savior for the first 
time in a long time. He soon developed a personal relationship 
with his maker. In turn, this relationship brought him up from 
the depths of his own human hell. His life finally had meaning, 
and he felt the confidence he gained through Christ.
    I wish I could tell you a good ending for the other boy. He 
was not as lucky to have found Christ. He hit rock bottom, and 
even went lower. He stayed on the road of destruction into high 
school. He overdosed on heroin his sophomore year. Luckily for 
him, he was given a second chance. He was found in time for the 
paramedics to revive him. I wish I could say this encounter 
with death changed him, but it did not. He does not have 
respect for life due to the fact that he has nothing to live 
for.
    What is the major difference between these two boys? One 
had Christ and that has made all of the difference. Christ is 
the only reason that I am here today. I was one of the boys in 
the story. I thank Him every day for delivering me from that 
chaotic time in my life. The difference between me and most 
teens and myself is that God has delivered me from that and I 
have chosen to be drug free because of that. God has brought 
meaning into my life so I have something to live for.
    I am here today for the simple reason that there is a drug 
problem. The use of drugs among teens has increased 
dramatically in the past 30 years. Researchers struggle with 
these facts. They are attempting to understand why so many 
teens have turned to drugs for answers to life problems. The 
fact of the matter is that every user is striving to fill a 
burden that is deep within their heart. In the last few years, 
the penalty for being caught with narcotics has increased 
dramatically. Although this approach has helped to decrease 
some abuse, it has not helped control or rid American students 
of the drug use.
    By treating the symptom and not the disease, we continue to 
fail in our attempts to rescue this generation from the all-
encompassing power of drugs. My solution is to give the 
students what their hearts and lives really need. People in 
society love to complain about problems around them. They never 
bring forth any solutions. Well, I bring to you today a fail-
safe way to solve this ever-growing problem that controls teens 
today. The answer, I believe, is to bring back prayer in 
schools. By taking God out of schools, the void needed to be 
replaced by something. Youth today have replaced it with drugs, 
alcohol, tobacco, rebellious acts against authority.
    In 1962, the Supreme Court took prayer out of school, and 
yet, ironically, they have the Ten Commandments posted on their 
wall. Our country was founded In God We Trust. We have lost 
sight of the truth and it shows in the youth today. Youth today 
are seeking direction, peace and fulfillment in their lives. 
Fellowship of Christian Athletes and other non-denominational 
organizations work with athletes and other students to fill 
this void.
    Programs for substance abuse are good, but what is really 
needed is a life change. The only way a life can be changed is 
through the soul or character of a person. This change occurred 
in my life through a personal relationship with Jesus Christ. 
God is the only complete and everlasting cure for the substance 
abuse.
    I hope today that I have enlightened you on the drug 
problem that plagues our teens today. The Supreme Court took 
God out of our schools, and now it is time for Congress to 
stand up and fight for the youth by putting God back into our 
schools.
    Thank you very much and may God give you wisdom and 
insight.
    Mr. Mica. Thank you for your testimony. And we will now 
hear from Dora Flowers who is the security officer with Bryan 
Adams High School. Welcome and you are recognized.
    [The prepared statement of Mr. Manning follows:]

    [GRAPHIC] [TIFF OMITTED] T1691.033
    
    Ms. Flowers. First, I would like to thank Congressman Pete 
Sessions for inviting me and giving me this opportunity to be a 
part of this very important hearing on drug prevention in the 
schools and community. I would like to start my remarks with my 
statement.
    Texas schools would be safer if all students had easy 
access to a system for anonymously reporting criminal 
activities on school campus. Students are often the first to 
know when another student is bringing drugs. However, fear of 
being labeled a snitch, or retaliation may keep them from 
notifying authorities.
    Parents should take a more active role in policing their 
own homes. Knowing the friends your child chooses and being 
aware of activities they are involved in and communicating with 
your child about drug use and periodically searching their 
rooms, if you suspect drug usage. Parents and school faculty 
needs to be trained to recognize the early warning signs that a 
student may show before doing or selling drugs.
    Educate the communities by having schools, churches and 
organizations work together to educate parents about the 
effects of drugs. Provide drug prevention programs with trained 
and real-life experiencing people who can give you real insight 
and information about the drug crisis in our schools and 
community. Adopt prevention and awareness programs targeting 
drug trafficking intervention programs for families that are 
drug users, where the student will receive help before it 
becomes a serious problem. Provide after-school and weekend 
activities for students, offer youth mentoring programs.
    And in summary, I would like to just mention that Texas 
schools would be safer if students are allowed to report 
anonymously the crimes that are taking place in the schools, 
parents policing their homes, educating the parents and 
community with resources that will enable them to cope with 
these issues.
    [The prepared statement of Ms. Flowers follows:]

    [GRAPHIC] [TIFF OMITTED] T1691.034
    
    [GRAPHIC] [TIFF OMITTED] T1691.035
    
    Mr. Mica. Thank you for your testimony. I thank each of the 
witnesses for their insight and comments to our panel.
    First of all, Ms. Mitchell, I am not certain exactly how 
this Youth Services program is funded. I read in the testimony, 
it says, since becoming a 501(c)(3). Is this now completely a 
private operation with public money going into it, and 
contributions? How are these activities funded?
    Ms. Mitchell. Well, the majority of the staff is funded 
through the city, through public taxpayer money, and then we do 
have the incorporation so that we can apply for----
    Mr. Mica. I am not sure we can pick that up.
    Ms. Mitchell. OK. And then we also have the incorporation, 
Mesquite Youth Services, Inc., so that we can be eligible to 
apply for additional funds for our programs as they arise.
    Mr. Mica. One of the criticisms you cited was it takes a 
long time, first of all, to apply for Federal grants. And then 
a considerable amount of time to get a program implemented. 
What can be done to short-circuit that process? Do you think if 
there is some other direction of funds through State block 
granting, then on down to these local organizations, would that 
expedite it?
    Ms. Mitchell. I think that would be helpful. You know, as I 
stated in my testimony, with the funding cycles being as short 
as they are, by the time you hire staff and you get the 
program, you know, up and running, then your money--you have 
expended all of your money. And my thought is, you know, if 
this--and then the thought behind that is, you know, for the 
city to find alternate ways to fund the program, if they think 
it is effective. And my thought behind that is, you know, of 
course, if we have alternative funding, you know, we would do 
it from within to begin with.
    As far as the money coming down to CDBG, I think that would 
certainly be helpful. We have applied for funds through the 
State process, the criminal justice division.
    Mr. Mica. Is that faster?
    Ms. Mitchell. Yes.
    Mr. Mica. It is.
    Ms. Mitchell. And the process is easier.
    But along with that, you know, coming from a suburb where 
we do not have the devastation that some communities face, 
oftentimes it is very hard for us to compete for those funds 
because of that.
    Mr. Mica. Well, we have heard similar criticisms. But any 
time you try to block grant all of the funds, substance, mental 
health money, I think we now have about 80 percent coming 
through the States in the form of block grants. Unfortunately, 
I think a hearing we conducted within the last year on this 
showed that we are using a large percent of the money, and I 
think it is in the neighborhood of $129 million, and 80-some 
percent of the staff to now oversee some 20 percent of the 
programs, which leads me to believe that we might look at 
block-granting the entire amount. The only problem is, everyone 
who now participates on any type of a Federal grant project 
basis lobbies Congress not to do away with those individual 
programs.
    What do you think?
    Ms. Mitchell. Well, I do not know that I necessarily have 
an opinion. But you know, if there is a program out there and 
that is their main existence, then you certainly do not want to 
remove that if that program is effective.
    Mr. Mica. But your experience and your testimony seems to 
indicate, one, it takes a long time to get access to a Federal 
grant; two, that the competition is----
    Ms. Mitchell. Is very stiff.
    Mr. Mica [continuing]. Is very difficult, and then I guess 
the third thing is that it takes a long time for 
implementation.
    Ms. Mitchell. Right.
    Mr. Mica. But your experience in getting the funds through 
the State----
    Ms. Mitchell. It is a simpler process.
    Mr. Mica [continuing]. Is a simpler process.
    Mr. Manning, you cited a personal experience and religious 
experience that helped you turn away from narcotics. One of the 
sort of hands-off areas of Congress is to support anything with 
a religious connotation, because again, there are some 
constitutional questions.
    How can we do a better job, in your opinion, from a public 
standpoint, if we cannot always support these non-public 
activities or religious activities? What have you seen that we 
are doing or not doing that could do a better effort in helping 
combat the problem of illegal narcotics used by our young 
people?
    Mr. Manning. First, we all have to remember that God is in 
the business of changing hearts and changing lives, and that is 
free for everyone. And with the schools today, I mean, our 
society has gotten so, you know, separate State and religion, 
you know, that our schools have become anti-Christian. That it 
is now, it is so much harder to become a Christian in your 
school, it is harder to pray in school, it is harder to have an 
assembly in school. You know, I have heard of some schools that 
get in trouble for bringing Bibles to school, for handing out 
pamphlets that deal with religion.
    And maybe if, you know, kind of subconsciously you guys 
help--allow us to spread the word in school. I mean, the 
Christians in our school will do that.
    Mr. Mica. You do not feel there should be a prohibition, 
there should be a little bit more openness to people exercise 
religious freedom or rights in school.
    Mr. Manning. Yes.
    Mr. Mica. I guess you do have a problem if it is taught or 
imposed in any way. But that is not what you were talking 
about.
    Mr. Manning. I know recently in Allen, we no longer have 
prayer at football games. That is something that we have grown 
up with. And you know, whenever you go to a football game, you 
are just used to hearing someone pray. And now the State has 
made it illegal for us to pray. And that is something, as a 
Christian, I do not understand, because people are always 
searching for something. And we have the answer, and it is just 
like our State is making us illegal to give the answer, you 
know. We know, it is like if we have a drought here, and there 
is only one waterhole left, we know where the waterhole is, and 
can we lead them to the waterhole, or is it going to be illegal 
to lead them to the waterhole?
    Mr. Mica. Ms. Flowers, you are a school security officer. 
How serious a challenge are we facing in the school that you 
are associated with?
    Ms. Flowers. Well, I feel we are facing a serious problem. 
I can give you my personal testimony of experiences that I have 
had in combating that problem. Like I stressed in my statement, 
students are more informed than we are. That is the reality of 
the problem. And I have had students that would come to me and 
confide in me and give me information that led to successful 
busts. And they know most of the time before we do who is 
bringing them in, who are the users, who are the sellers.
    Mr. Mica. How long have you been in your position?
    Ms. Flowers. Three years.
    Mr. Mica. And is the situation better, worse, the same?
    Ms. Flowers. I would say it is about the same. We have had 
some success, but I feel we are still far away from it because 
of the fact that the students do not have any access to do it 
anonymously. Because there is a lot of them out there that 
really are crying out for help, and they do want to act on it, 
but they are afraid. Afraid of being labeled a snitch or afraid 
of retaliation.
    Mr. Mica. So you think that they need some additional means 
by which they can try to deal with the situation, and also get 
information to you? Is there anything specific that we can do 
to assist in that? Any constraints you are under by the Federal 
Government, or other agencies?
    Ms. Flowers. Well, I do not know what it entails or takes 
in order for them to have some form of hotline, OK? 1-800 
hotline for the students in the schools, where they can report 
it, and then train people, personnel to followup with 
investigation.
    I have experienced parents also that have cried out for 
help, for intervention, as Ms. Mitchell has mentioned in her 
testimony about the programs that they offer, but there is not 
enough. In the inner school, I have not one program that I can 
refer parents that come to me for help.
    I had a situation, I would like to share this, and I think 
you will get a better understanding of what I am saying. I had 
a parent come to me with a picture that her daughter received 
from a student with a gun that she had put to her head, and 
gave her the picture saying, we will be friends to death. Now 
that is a sign of some form of gang activity. She was 
terrified, she secretly took that picture and brought it to the 
school to share it with us to find out, what can I do to get my 
child out of this situation? And when I referred this 
information over to the Dallas police officer that works on our 
campus, he said, it is not a criminal act, that she just found 
a picture.
    At that point, I personally counseled with the lady and 
just told her that I feel that you need to police your own 
home, be more aware of the activities that your daughter is 
doing, be more aware of her friends that she hangs out with, 
set some boundaries, and that. But I had no program that I 
could refer her to that could actually come in with their 
expertise and intervene at that point.
    Mr. Mica. Thank you. Mr. Sessions.
    Mr. Sessions. Ms. Flowers, as you know, I served as 
principal for a day at Bryan Adams High School, and you and I, 
I think, formed a very quick relationship, mostly because I was 
on your watch, your beat, I walked a mile in your sandals. I 
was very impressed with how you handled problems, friends and 
made sure that people understood that you were doing your job.
    My question to you this morning is, we have heard a lot of 
testimony here today of some people who said that police 
officers were there to do their job, and that is why people did 
not want to come in contact with them. Do you find--in other 
words, Mr. Bowen stated that you do not really want to give it 
to a police officer because they might do something with it.
    When I was in high school, I felt like--and I came from a 
different family, my father was the U.S. Attorney in the 
Western District of Texas at the time, in San Antonio. I felt 
like that students needed to turn it in, and wanted something 
to be done about it. I felt like the kids, more than half the 
students, well more than half the students do not want to be 
engaged in or see drugs in their schools. Do you believe that 
your students do not want drugs in their schools and would like 
something done about it?
    Ms. Flowers. Definitely. Yes, I do. And not only that, they 
have came and felt comfortable confiding in our youth action 
office. And there is so many out there that want to do even 
more, but it is also important that they have other options, 
too. And that is why I stress the anonymous hotline, a line 
that they can call for those that are not as courageous or 
those that are more fearful, that they will have another outlet 
that they can use to get that information to our office or 
wherever it is needed in order for them to follow through and 
investigate on the drugs that are being brought into our 
schools.
    Mr. Sessions. Do you feel like, as the front-line officer--
--
    Ms. Flowers. Definitely.
    Mr. Sessions [continuing]. That you, as the front-line 
officer, do you feel like that if some child, student brings 
something to you, that you can do something about it? That the 
process above you--not below you but above you--understands 
what it is going to do, including another police officer, 
including your principal, that they understand the seriousness, 
and does it work?
    Ms. Flowers. Yes, it works very well. It is very effective. 
It works.
    Mr. Sessions. Well, I might say that I have seen you in 
action when I think other people might have backed off. You 
stuck to a procedure, you stuck to a process and you believe in 
what you are doing. That is why I asked you to be here today, 
because I believe that you are not only the role model we need, 
but the example. And I will tell you that, one thing that I 
will take from this is that I recognize we need to work with 
our State legislators and also other law enforcement officers, 
to get us to have a process where you can take information and 
do something about it, because I think the students are 
willing, as you have suggested here today, and the testimony, 
to be a part of what they are doing. Mr. Manning, I believe, 
has indicated the same thing. And I believe Ms. Mitchell 
understands that if we can work in our schools when students 
are there, and work effectively, that we can do something about 
it.
    I yield back my time, Mr. Chairman. Thank you.
    Mr. Mica. Thank you, Mr. Sessions. I will recognize Mr. 
Souder.
    Mr. Souder. Ms. Mitchell, we heard in the first panel from 
Gary Westphal, and we have heard about the number of programs. 
Are you the same youth services that he was talking about?
    Ms. Mitchell. Yes.
    Mr. Souder. OK, are you a different division in 
intervention? Like you are not involved in the Slama-Bama-Jama?
    Ms. Mitchell. Right. I am not under the police department, 
but under the Parks and Recreation Department. But in 
conjunction with that, I serve as the staff advisor to Mesquite 
Youth Services, Inc.
    Mr. Souder. So Youth Services has a series of different 
types of programs?
    Ms. Mitchell. Yes. And we work very closely, you know, with 
the schools. Someone earlier, I think Chairman Mica asked me 
about funding. And the school district has been very 
forthcoming in helping us to sponsor our programs as needed. 
And so we really have enjoyed community support with donations. 
We have service organizations that have raised funding for my 
first-year salary when I came aboard in 1991, that also 
purchased a van for Youth Services to help us with our 
programs. So again, we have really enjoyed a lot of community 
support, when it comes to helping us keep our programs going, 
and keeping that development there.
    Mr. Souder. Mr. Manning, you said that you were one of the 
two students you described in the beginning of your testimony. 
And that you found Christ. Did somebody talk to you, did it 
come out of your own experience? Was it through your family?
    Mr. Manning. I grew up in a Christian family, and I mean, 
my parents were great Christians, and they raised me in the 
church. And from day 1 I was in the church. And I knew who God 
was, but I did not really know him. I did not have the 
relationship with him. I mean, I kind of believed in him, but 
Satan also believes in God, so I mean, that is not something 
you can go on.
    But it as at that point in my life, whenever I hit rock 
bottom, that there was nowhere else to go, that God put me flat 
on my face, and then I realized what a relationship meant with 
Him. And that is whenever I had a personal relationship with 
Him, and really knew Him. And it totally changed my life from 
then on.
    Mr. Souder. Had you gotten involved with other kids?
    Mr. Manning. Yeah, I was in athletics, and I was in 
swimming. And I was decent in swimming, I was on the State 
level, and I hurt my shoulder. And you know, after that I 
really had nothing to do. And you know, free time after school 
or whatever, and I got in on the wrong crowd. And it just went 
from there, started snowballing from there.
    Mr. Souder. I know this is personal, but as a dad with 
three kids, and I struggle with the same question with my kids, 
and we have heard testimony in multiple hearings about the 
difficulties of parents. Do you think your parents suspected 
that? I mean, I have a son who is about to turn 21, you know, 
he likes rock music, and we are a strongly Christian family. 
And as a parent, it is hard to know when to ask what questions. 
Do you want to be too judgmental? If you come down too hard, 
will they back away even farther? What would you have done 
differently if you were your dad?
    Mr. Manning. I certainly hope I am never in that situation.
    Mr. Souder. But you probably will be.
    Mr. Manning. I know that. I know that.
    I do not know. I mean, my parents were always there for me 
and they were always loving on me. I think they realized that 
there was something going on there. They did not know exactly 
what it was. I guess they were kind of trusting me to tell 
them, and I really never got around to it. And I finally came 
to a point in my life when I hit rock bottom, and that is when 
I really found out about it. So I mean----
    Mr. Souder. That is when the roots were planted correctly. 
The fear that you have as a parent is that, you know, an 
accident or something will happen before you come off the rock 
bottom. And that is our difficulty.
    I want to ask you one question. This is not intended to be 
a trick question, it is a straight-forward question.
    Mr. Manning. OK.
    Mr. Souder. If there was a football team that was made up 
of a majority of Black Muslims, and they went out on the field 
and wanted to have a prayer to Allah, would you favor that?
    Mr. Manning. I mean, that is their freedom right there.
    Mr. Souder. Because that is the fundamental question we 
face in the religious liberty. We have to be consistent if we 
are going to allow it. And need to be student-led. We filed a 
brief, a number of us in Congress, in support of the Texas 
appeal. If they get a favorable appeal, it will probably be 
that it has to be student led. The danger here is that then it 
is majority vote, to some degree. I mean, I fundamentally, 
completely agree that we have replaced Christianity and the 
Judeo-Christian principles with a secular humanism that is not 
in science. It is in philosophy, it is in sociology, and we are 
wrestling with it. But we are also walking an interesting line 
here with the diversity in our country, that we have to be 
prepared to defend religious liberty if we are going to 
advocate it.
    Mr. Manning. Actually, I have a pretty good friend of mine, 
he is Muslim, and we discuss it all the time, and I have tried 
to convert him a few times. But at our graduation, a girl was 
told what prayer she could say. She is a Christian, and I have 
been to her church a few times. She wrote out a prayer and let 
me read it. I was like, that is great, that is awesome. And 
then she turned it in to our principal, and he rewrote it and 
told her what she could say. She showed me that, and said, 
well, I am not going to say it. It is my freedom, you know, to 
say my own prayer. And so she went and said that prayer, the 
prayer that she prepared, and she said Jesus' name, and that is 
the only name nowadays that offends people.
    I talked to my friend that was Muslim, and he was like, it 
did not offend me at all, because that is--I understand your 
religion because you talk to me so much about it. And I know my 
beliefs, and it did not offend me at all. I was glad that she 
got to pray the way she felt like she needed to pray.
    I guess it is more tolerance to other religions, I do not 
know how that would work. If they want to pray their prayer and 
let us pray our prayer, that is great. Just allow us to do 
that, allow us to have that free assembly of what we need.
    Mr. Souder. Well, thanks for your willingness to speak out 
and to have the courage to do that.
    Ms. Flowers, I have a question for you as well. We have a 
hotline in my district, and a lot of schools have it as well, 
it is anonymous. It still gets called snitch line. But it is 
better, because at least you have some means, and particularly 
in the guns area. It was real interesting, it was a snitch line 
until Columbine, and then all of a sudden the kids decided that 
maybe it was a help line. And that changed a lot of attitudes. 
We need that same thing to happen in guns.
    But as a practical matter, one of the problems that we get 
into here is the kids often know a lot of things that you do 
not or the parents do not about other kids. They also know a 
whole bunch of things are not true because they traffic in 
gossip and rumor. How do we sort this through and how do you 
deal with that type of question? Because I hear--sometimes if 
you hear your kids talk, 80 percent of the kids are doing 
something as opposed to--in fact, they come home, and you think 
everybody's got a brand-new car, can be out until 3 a.m., and 
that soon as you come down on them, they come up with a whole 
bunch of other people, some of which is true.
    And then we have a novelty problem that we ran into when we 
tried a law of parent accountability. And it happened in Los 
Angeles on gang accountability. And as I talked to a lot of 
single moms trying to raise their kids, one of the things that 
they said that their kids were doing is that, when the parents 
practiced discipline on them, and we had a parent 
accountability, they turned their parents in with false 
charges. And that intimidated the parents from enforcement.
    What do you with the really hard-core types who can turn an 
anonymous tip situation around on us? Have you thought that 
through? Have you run into that with any of the kids at school?
    Ms. Flowers. Well, we have a file on their disciplinary 
problems, and on character. I mean, you have to judge the 
person that is giving you the information, and thoroughly 
investigate it. And basically that is how we really deal with 
our students that are considered, ``informants.'' And just 
judge by their character and their own life, if this is really 
going to be credible information. But we follow through on 
every report. I mean, I cannot say, no. And most of the time, 
it is some legitimate information that you can use bits and 
pieces. But I do not turn away a report.
    Mr. Souder. So you have not seen, like, one gang trying to 
get another gang in trouble, necessarily?
    Ms. Flowers. No, I have not.
    Mr. Souder. Even in Colombia, when we took down the 
Medallion Cartel, it was because the Calle Cartel decided they 
wanted to eliminate them. I mean, we have our own DEA and CIA 
cannot figure out half the time whether their guys are two-way 
or one-way. But it is interesting, as we start to get into the 
anonymous tip lines at school, how we are going to address 
those questions.
    But thank you all for your time and willingness to be 
involved.
    Mr. Mica. Well, I want to again thank the three panelists 
that we had here, for your participation, also for the insight 
into your local programs and your activities with the school 
that you police, Bryan Adams High School. And also thank Mr. 
Manning for his recommendations and personal commitment that he 
has made in coming forward today and providing the 
subcommittee, again, with his experience.
    Mr. Souder had moved that the record be open for a period 
of 2 weeks, so if anyone has additional information, testimony 
they would like to be made part of this record, feel free to 
submit it to the subcommittee through the Chair or through Mr. 
Sessions.
    I do want to take a moment to thank Mr. Sessions, not only 
for his invitation to be here and learn from this local 
experience and from the individuals involved in education, drug 
prevention, law enforcement in his community today, but also 
for his past great assistance and leadership in the Congress in 
this most difficult problem area that we are facing. It is 
probably one of our greatest national challenges. I thank him 
again for having us in his community and for the opportunity to 
work with him in trying to resolve some of these problems.
    There being no further business then to come before the 
subcommittee, I declare this meeting adjourned.
    [Whereupon, at 1:09 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1691.036

[GRAPHIC] [TIFF OMITTED] T1691.037

[GRAPHIC] [TIFF OMITTED] T1691.038

[GRAPHIC] [TIFF OMITTED] T1691.039

[GRAPHIC] [TIFF OMITTED] T1691.040

[GRAPHIC] [TIFF OMITTED] T1691.041

[GRAPHIC] [TIFF OMITTED] T1691.042


</pre></body></html>
